<html>
<title> - THE FEDERAL RESEARCH PORTFOLIO: CAPITALIZING ON INVESTMENTS IN R&D</title>
<body><pre>[Senate Hearing 113-688]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 113-688
 
                  THE FEDERAL RESEARCH PORTFOLIO: 
                  CAPITALIZING ON INVESTMENTS IN R&D

=======================================================================

                                HEARING

                               BEFORE THE 

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       
       
                            U.S. GOVERNMENT PUBLISHING OFFICE
95-795 PDF                      WASHINGTON : 2015                            
_______________________________________________________________________________________       
       
  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  
     
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 17, 2014....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     5
Statement of Senator Markey......................................    40

                               Witnesses

Vinton G. Cerf, Vice President and FICEF Internet Evangelist, 
  Google; Member, National Science Board.........................     7
    Prepared statement...........................................     9
Mariette DiChristina, Editor-in-Chief and Senior Vice President, 
  Scientific American............................................    13
    Prepared statement...........................................    15
Neal Lane, Senior Fellow in Science and Technology Policy, Baker 
  Institute for Public Policy, Malcolm Gillis University 
  Professor and Professor of Physics and Astronomy, Rice 
  University; Co-Chair, Committee on New Models for U.S. Science 
  and Technology Policy, American Academy of Arts & Sciences.....    18
    Prepared statement...........................................    20
Stephen Fienberg, Maurice Falk University Professor of Statistics 
  and Social Science, Department of Statistics, The Machine 
  Learning Department, The Heinz College, and Cylab, Carnegie 
  Mellon University..............................................    27
    Prepared statement...........................................    29

                                Appendix

Letter from Darold Hamlin, President and Executive Director, 
  Emerging Technology Consortium to Hon. Jay Rockefeller and Hon. 
  John Thune.....................................................    51
Response to written questions submitted by Hon. Amy Klobuchar to 
  Dr. Vinton G. Cerf.............................................    53
Response to written questions submitted to Dr. Neal Lane by:
    Hon. John D. Rockefeller IV..................................    54
    Hon. Amy Klobuchar...........................................    55
    Hon. Edward Markey...........................................    55
Response to written questions submitted to Dr. Stephen Fienberg 
  by:
    Hon. John D. Rockefeller IV..................................    56
Hon. Amy Klobuchar...............................................    57

   THE FEDERAL RESEARCH PORTFOLIO: CAPITALIZING ON INVESTMENTS IN R&D

                              ----------                              


                        THURSDAY, JULY 17, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-253, Russell Senate Office Building, Senator John D. 
Rockefeller IV, Chairman of the Committee, presiding.

        OPENING STATEMENT OF HON. JOHN ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. As I've explained to one of you already, this 
is sort of a bad afternoon and I don't give a hoot because, if 
there was nobody here, I'd be even happier because then I'd get 
you all to myself, and I'd keep you for 2 hours and we'd just 
have an incredible conversation. But, everybody, by three 
o'clock, virtually everybody is out of here, because they all 
have to go through this miserable process of going back home 
and going to fundraisers and doing political speeches and all 
of this stuff, which John Thune doesn't have to do because he's 
an icon in South Dakota.
    [Laughter.]
    Senator Thune. Yes, right.
    The Chairman. Well, that's new. At least it's new.
    And, you know, John, and Amy is going to be here. And I 
think it'll just be us.
    I think your general impression is accurate, that we get 
nothing done in the Senate, but that doesn't mean that we 
can't. And you have an example right here; these two people. 
Now we're not the same people, we belong to different political 
parties, we have different philosophies on some things but our 
attitude, since we like each other----
    [Laughter.]
    Senator Thune. Yes. Yes.
    I'm sorry, I missed the cue.
    The Chairman. We look for ways to cooperate. Though, rather 
than looking for ways to not cooperate, we cooperate to 
cooperate. And, as a result, we're going to be able to hand up 
a bill here very shortly, which I'm going to show you what 
we've done. And we worked together. And that was a harder 
stretch for him than for me because he's under more pressure 
sometimes. I mean, Democrats can always be irresponsible; 
right?
    [Laughter.]
    The Chairman. And then, his predecessor was a lady named 
Kay Bailey Hutchison from Texas. And she was fabulous; 
absolutely fabulous. And she was a classic moderate Republican; 
right? A little bit of old school?
    Senator Thune. She was a conservative, but yes.
    [Laughter.]
    The Chairman. Yes.
    No, but I mean in her----
    Senator Thune. Yes, demeanor.
    The Chairman.--demeanor.
    Senator Thune. In her demeanor. Yes, that's right.
    Very nice.
    The Chairman. Yes.
    You know, I just came from the National Youth Science 
Foundation Luncheon where there were 200 of the two smartest 
people from every state in science, technology, engineering and 
math were there. And they all got really boring speeches except 
mine, which is absolutely terrific.
    [Laughter.]
    The Chairman. It just gives you such a sense of joy to know 
that there are people out there like that.
    And, John, I'm sure yours were just as good.
    But, Kay Bailey--we had this America COMPETES Act, which 
we're going to hold up the second version of it, third version 
of it, that was saddled, a number of years ago, in the center 
of the Senate aisle on a bipartisan basis by a unanimous 
consent. It was a $45 billion bill. That's not something that 
people ordinarily sign onto quickly. And there were five holds 
on the Republican side. And Lamar Alexander and I had been 
governors together, and his wife is on my wife's public 
television board. And Kay Bailey Hutchison is just a really 
good friend and I still send her flowers on Mother's Day.
    None of this has anything to do with this hearing.
    [Laughter.]
    The Chairman. But, if you just be patient, it's almost 
over.
    And so, this is the way we did the America COMPETES bill; a 
$45 billion bill.
    Kay Bailey said, ``This is a little rich.''
    I said, ``What if I take a billion off?''
    You know when you say, ``What if I take a billion off?'' 
that sounds really good; right? It's a lot of money. So we did 
that.
    Then, she said ``Well there's this program,'' and some part 
of it that I don't really like.
    So I called up my committee staff head here and I said, 
``Do we really need that?'' She said, ``No, actually we 
don't.''
    So I said, ``Kay Bailey, the billion is gone, the program 
is gone, Lamar Alexander is obviously devoted to education,'' 
from his educational background, ``went and cleared all the 
Republican holds.'' And we passed it by unanimous consent 
without moving that one afternoon.
    So things used to be like that. They can still come to be 
like that. It won't be quick, but do not get discouraged. OK.
    Senator Thune. Here, here.
    The Chairman. I really appreciate your being here. We had a 
great hearing yesterday, but this is going to be a better 
hearing. There just won't be as many members here because 
they're all home going to their public libraries to read 
serious books; right?
    Senator Thune. Yes.
    The Chairman. I've been working on this whole area for a 
long, long time. I'm really honored to be chair of this 
committee and to work with John Thune, because we do have 
jurisdiction over it, which is a complex word but it's the 
oversight of NIST, NSF. You know all the places which don't get 
enough attention. They get more attention for doing 
cybersecurity but otherwise they don't. But they're incredible 
important. But unless you decide they're important then you 
feel free to go and cut. Now there's a lot of cutting going on 
in Congress this day and that's something we're going through 
and that's going to be difficult.
    But there can be absolutely no question investing in 
science, technology and innovation and educating our young 
people is critical to our future. And that's what you say, 
Vint, in your, Dr. Cerf, in your opening statement and I think 
we should all be grateful that our country's leaders have had 
wisdom and the patients to make over the years these 
investments because they make a real difference in peoples' 
lives. You do it for the cerebral excitement of it but you also 
do it for the public good. I mean, that's just part of what you 
do.
    Investments never change things over night. Americans 
always want things to be changed overnight, but when they do 
things and you've been involved with them, they're game 
changers. And funding for the agencies like the National 
Science Foundation, NIST, just doesn't mean another scientist 
in a lab somewhere; quite the contrary.
    The money that we put into basic research in understanding 
the world around us has a real world impact and it creates new 
ways, one, to protect our loved ones by better identifying 
dangerous counterfeit drugs; second, to secure our homeland by 
being able to smell even small amounts of explosives; and 
three, to interact with the world by providing seed funding and 
new technologies for companies that transform the Internet, 
communications, and mobile phones, and a whole lot of other 
things.
    That's why I've been so happy to support Federal funding. 
John's going to get mad at me in a minute, but there have been 
a bunch of Senators, before I got here from West Virginia, none 
of them have ever voted for a foreign aid bill or a foreign 
assistance bill. They considered that to be a waste of money, 
money that could be spent on West Virginia or something else 
and there has almost never been a foreign aid bill that I 
haven't voted for. And that's just a change. I'm different in 
that way and people have come to accept that. And it doesn't 
make me popular, but it makes me do my job.
    So that's why I support Federal funding for research and 
development, R&D, for education in science, technology, 
engineering, and mathematics; STEM. That's also why I've been a 
huge champion, along with John, for the American COMPETES Act 
of 2007 and 2010; we're going to hold up the next one in a few 
minutes.
    Over the past few months, I've received some amazing 
numbers on the impact of programs addressed in that COMPETES 
Act.
    Back in 2001, I worked on legislation to create the Robert 
Noyce Teacher Fellowship Program, which was strengthened in 
2007, in that COMPETES Act. As of last year, the Noyce 
Scholarship--see I love reading these things. The Noyce 
Scholarship Program is expected to help produce over 12,000 
math and science teachers in high-need areas.
    Well, Senator Thune and I both come from high-needs areas; 
from rural states with a lot of people who don't get to do what 
people in more urban areas do.
    In 2010, the COMPETES granted every Federal agency the 
authority to award prizes for solutions to difficult problems. 
Since then, the website Challenge.gov has hosted over 200 
challenges with over 16,000 Americans participating. That's 
good. That's not 160,000 but it's 16,000. That's good. Ongoing 
challenges are working to better measure pollution; reduce 
hospital readmission; to bring down the cost of solar energy; 
and just tons of other areas.
    If this country is going to build on these tremendous 
results, we must continue to defend scientific research and to 
make it a priority. Make it a priority. Given our government's 
long and successful track record in supporting research and 
development, I'd like to think that it doesn't need defending. 
But, you know, I'm wrong. It does; vigorous defending, which is 
why this is important.
    We know that our science agencies have suffered because of 
long-term funding reductions. That's not just the work but the 
morale, people's future plans. It's like any time you make 
cuts, people start looking at their future in a different way 
because they figure I can't be sure the government is going to 
change, because nobody can predict the future that way. And, if 
they do, it's usually gloomy.
    It's very impossible to plan long-term research when you 
can't even be sure of your next budget over the next couple of 
months. Also, we've seen proposals that would let Congress 
decide what research projects are worthwhile. Now this is 
something which makes me very hot under the collar. Congress 
has no business deciding what research projects are worthwhile. 
I mean, you know, we've got scientists in the Congress and they 
can be helpful. We've science committees and that kind of 
thing. But, having served on this committee and worked with the 
Senate Science and Technology Caucus, I know that scientists, 
through grant competitions and peer review, are best able to 
make those decisions. Congress wants to but you know what's 
best, and your colleagues.
    On his deathbed, and I love this story, John. In 1969, 
Senator Thune, President Dwight Eisenhower told a friend that 
in his experience, I've never read this before and I've never 
heard this before, ``scientists were'', on his deathbed mind 
you, ``were one of the few groups in Washington who seemed to 
be there to help the country and not help themselves.''
    Our House colleagues would substitute their own opinions 
for those. The scientific community would be wise to remember 
those words.
    Today, I plan to--now comes my big moment. John, we're 
going to hold this bill up together. See?
    This is the 2014 America COMPETES bill, which I haven't yet 
read. This is why I'm not going to give it to you.
    [Laughter.]
    The Chairman. This bill would make it clear that the United 
States is committed to leading the world in science and 
engineering. That means getting the kids excited about STEM, 
funding a wide-range of research and making sure that the best 
research results make it to the marketplace, which is all that 
counts.
    There are already so many examples of federally-funded 
research making our Nation and our economy stronger. That's why 
I'm very glad to see Dr. Vint Cerf here today. It really was 
not Al Gore; it was Vint Cerf who, at DARPA, started the whole 
Internet business. And Dr. Cerf will explain it took several 
decades of incremental work by scientists. See that's what is 
so important. Everybody wants a quick solution, a quick answer. 
It doesn't work that way. And that's the difference with the 
private sector. The private wants to get a result quickly or 
relatively quickly. They'll hang in some of the big ones for a 
while and put up risk money, but at some point they've got to 
have a result.
    The Federal scientists know that sometimes the risk of 
failure is your best friend, because you learn from why you 
failed and, rather than have your program canceled, you have to 
have it defended because you learned from that and you go on to 
do what you do.
    Netscape, Yahoo!, Google, you know, all of those things 
would be nowhere without all of you. And they pursue their 
business ideas because of what you've done.
    Our challenge is to make sure that the next Internet is 
developed by the United States, not in a laboratory in China, 
India, or Europe. And I'm not xenophobic that way. It's just I 
want it that way. I mean, we used to have those magnificent 
institutes in India; you have to be brilliant to get in and 
brilliant to get out. They'd all come over here and they'd do 
their graduate study and they'd stay here and they'd work here. 
And now, increasingly, there and in other countries they don't. 
They go back to their own countries. And I can't criticize 
that, because their own countries need them too. But it was 
just wonderful when they were all staying here and working and 
starting up businesses and it was exhilarating. And Europe, 
too.
    So unless we choose to support science in the country, and 
it is a choice, it's always a choice, I'm afraid that the next 
world-changing innovation will not belong to us. And that's why 
I'd like to invite all of my Senate colleagues to work with 
Senator Thune and myself on a 2014 COMPETES reauthorization to 
ensure that our country continues to lead. And that's the end 
of me.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Thank you for holding this hearing to consider the Federal 
role in scientific research and development and how best to 
capitalize on Federal investments.
    I join you in welcoming our witnesses to today's hearing, 
which presents us with a good opportunity to discuss the impact 
of the United States R&D enterprise on our economy and our 
society overall. Among individual countries, the United States 
is by far the largest investor in public and private R&D, 
comprising 30 percent of the global research and development 
total. Past and current budget realities, however, underscore 
the importance of maximizing our Federal investments that so we 
can get the biggest bang for our buck, and should encourage an 
examination of ways to leverage even more private sector 
resources to expand the reach of our R&D.
    The America COMPETES Acts of 2007 and 2010 were designed to 
set our science and technology R&D priorities and serve as the 
authorizing vehicles for the National Science Foundation and 
the National Institute of Standards and Technology under our 
Committee's jurisdiction, as well as for the Department of 
Energy's Office of Science.
    I know you, Mr. Chairman, and former Ranking Member Kay 
Bailey Hutchison worked together on the America COMPETES Acts 
of 2007 and 2010, and I look forward to reviewing the 
legislation that you just put forward and that your staff is in 
the process of developing for discussion, and evaluating 
opportunities for consensus as we go forward.
    At some level, there is broad bipartisan consensus that the 
Federal Government should play a significant role in promoting 
scientific research, especially basic research. As Dr. Cerf 
points out in his testimony, businesses can rarely support 
sustained, long-term, high-risk research in the same way the 
Government can; this is especially true when the benefits, 
though potentially large, are diffuse. But, once we get beyond 
the high-level agreement, the nuts and bolts of Federal funding 
can get quite challenging.
    As our colleagues on the House Science Committee have 
noted, it is not hard to find examples of federally funded 
research that sound more like the pet projects of eccentric 
billionaires than matters worthy of limited taxpayer dollars. 
Plus, even when we accept the scientific merits of R&D, there's 
no shortage of worthwhile projects with more clear-cut ends 
that compete with basic research for funding.
    In this Committee, we've heard previous testimony about the 
importance of funding research intended to stimulate advanced 
manufacturing, improve forensic science, and bolster 
cybersecurity. All of these are laudatory goals, but some may 
be achieved through means other than direct Federal spending. 
For example, I introduced an amendment to the tax extenders 
legislation in May that would simplify and make permanent the 
R&D tax credit. This tax credit encourages businesses to 
continue investing in R&D and promotes jobs and manufacturing 
throughout the country.
    In my view, the Federal R&D enterprise is at its best when 
it supports important basic research that is foundational to 
discovery. For example, in my home state of South Dakota, 
researchers a mile below the surface at the Sanford Underground 
Research Facility, or SURF, in Lead, South Dakota have been 
conducting a world-class experiment to detect dark matter. 
While the applications of this research are yet to be fully 
understood, such research contributes to our understanding of 
how the universe works. I'm pleased to note that NSF and DOE 
recently announced that they have jointly selected a portfolio 
of projects for the second generation of dark matter, direct-
detection experiments that will include another new experiment 
housed at SURF.
    These existing and future dark matter experiments, which 
present compelling goals and opportunities for U.S. leadership 
in the physical sciences, include more than 100 collaborators 
representing 17 universities around the world, including South 
Dakota School of Mines & Technology and the University of South 
Dakota, as well as national laboratories in the United States, 
the U.K., and Portugal.
    Federal support for fundamental research, such as that 
underway at SURF and at universities across the country, can 
provide the foundation for many new innovations. These 
discoveries often provide useful applications far afield from 
the original focus. Yet, to help recognize potential 
applications, a recent National Academy of Sciences report 
highlighted the need to improve the metrics and measures that 
track and evaluate these publicly funded research programs and 
their ultimate impacts on society.
    Along these lines, I look forward to hearing from our 
witnesses today about ways to better maximize the benefits of 
federally funded research, as well as barriers that are 
inhibiting innovation. I'm also interested to hear about any 
challenges our witnesses in the private sector and university 
community have faced in investing in long-term research, as 
well as the obstacles they've confronted in attracting and 
retaining foreign-born students and workers in STEM fields. I'd 
also like to hear from the witnesses about what policies beyond 
direct funding from Federal agencies, could help to unlock new 
sources of R&D from the private sector.
    I want to thank you all for your participation and for 
taking time to share your insights with the Committee this 
afternoon, and I look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. All right. Now it's your turn unless you'd 
like us to talk more.
    [Laughter.]
    The Chairman. Dr. Cerf, you are going to be first. I've 
already read your testimony but I'd like to hear it again.

STATEMENT OF VINTON G. CERF, VICE PRESIDENT AND FICEF INTERNET 
       EVANGELIST, GOOGLE; MEMBER, NATIONAL SCIENCE BOARD

    Dr. Cerf. Thank you very much, Mr. Chairman and Ranking 
Member Thune.
    I must confess to you, after listening to both of your 
opening remarks, I almost feel like I should stay silent 
because, you know, you basically just gave my speech. But if 
you can tolerate a few additional remarks, I would be honored 
to continue.
    There is no substitute for deep understanding of natural 
and artificial phenomena, especially when our national and 
global well-being depends on our ability to model and make 
predictions regarding them.
    Government support for basic and applied research is 
crucial. Not only does it bring great civil and economic 
benefits, but the government also has the unique capacity to 
sustain this kind of effort. You are all well aware of the 
fundamental scientific paradigm. Theories are developed to 
explain observations or to speculate on how and why things 
might work. Experiments are done to validate or refute the 
predictions of the theory. And theories are revised based on 
experimental results.
    Basic and applied research go hand-in-hand. Basic research 
tries to understand and applied research tries to do. And 
often, one must pursue both in the effort to uncover new 
knowledge.
    The Internet is a great example of how successful applied 
research projects develop. It took 10 years for the Internet to 
reach operational status. It's still the subject of research 
and further development as new and, often, unexpected 
applications are invented every day.
    Validation of basic research may take a long time. Results 
are not always guaranteed. Consider the recent discovery of the 
Higgs boson. Peter Higgs and his colleagues postulated the 
existence of this fundamental particle around 1954, but it has 
taken 50 years, I'm sorry, 1964, but it has taken 50 years to 
achieve the experimental capacity to test the theory. Research 
also requires humility. Every scientist must be prepared to 
cast aside or revise a pet theory if measurement and 
observation contradict it.
    Failure is the handmaiden of wisdom in the scientific 
world. Understanding the reason for failure is sometimes even 
more important than positive results. It may pave the way for 
deeper understanding. The freedom to accept the potential of 
failure makes the difference between an incremental refinement 
and a breakthrough. Einstein's special and general Theory of 
Relativity shattered the complacency of the Newtonian model of 
the Universe.
    Research into the nature of the atom led to the development 
of quantum field theory. Relativity and quantum field theory 
have not been reconciled. And now we believe that the physics 
of the very small are extremely relevant to the study of the 
universe at large.
    If we've learned anything over the course of the past 100 
years, it is that we know less than we once thought we knew 
about the world around us. For scientists, this only means that 
discovery awaits at every turn.
    Sustainable businesses are rarely in position to invest in 
long-term research. The U.S. has benefited from underwriting 
this kind of work as exemplified by the research programs of 
DARPA, NSF, NIH and NIST; among many others. Consistent and 
increasing support for basic and applied research and advanced 
development has been the source of most advancements in science 
and technology in the last 70 years and has played a large role 
in making the American economy the envy of the world. In this 
area, the Congressional committees, focused on scientific 
research and development, have extremely important roles to 
play.
    We're living through a renaissance of computing that will 
transform our ability to understand global phenomena. New 
disciplines, such as computational biology, computational 
chemistry and computational physics, use increasingly detailed 
and accurate models to make predictions that we can test in the 
laboratory. The resulting breakthroughs could help people live 
longer, healthier and more productive lives. As Richard Hamming 
famously observed, ``The purpose of computing is insight not 
numbers.''
    The 2013 Nobel Prize in chemistry went to three NSF 
researchers for their computer models of molecular processes. 
It's sometimes said that we're all born natural scientists but 
that our educational system erodes this curiosity with poorly 
constructed curricular content and style of presentation. 
Computers and networks may have a role to play there as well.
    Along with the Association for Computing Machinery, I 
believe every student should have some exposure to programming. 
I've been a strong proponent of the proposition that computer 
science should be a required part of the K-12 curriculum, 
treated on a par with the other STEM subjects.
    The Maker Movement, accelerated by the development of 3D 
printers and the Internet of things, is perhaps one of the most 
important trends in modern culture. Stimulated by NIST, NSF and 
the America COMPETES Act, advanced manufacturing and the Maker 
Movement have the potential to recapture American initiative 
and interest in a space that historically had moved offshore.
    And, while absolutely not a panacea, massive online open 
courses have a transformative potential for the education 
system in their ability to deliver affordable, high-quality 
content, at scale, and individualized learning in appropriate 
education areas.
    In conclusion, government support for basic and applied 
research is crucial. I am proud and privileged to serve on 
NSF's National Science Board. NSF's Scientific and Educational 
program relies on widely solicited proposals, a well-tested 
peer review system, dedicated and well-qualified program 
managers, and strongly motivated and highly effective 
leadership.
    Successful government scientific endeavors depend upon a 
partnership among the research community, research agency 
leadership and staff, and the members of the House and Senate 
who are equally committed to the research. Vannever Bush got it 
exactly right. Science is an endless frontier. The more we 
learn, the more we know we don't know, and the more we must 
dedicate ourselves to learning and knowing more.
    Thank you.
    [The prepared statement of Dr. Cerf follows:]

Prepared Statement of Vinton G. Cerf, Vice President and FICEF Internet 
           Evangelist, Google; Member, National Science Board
    Chairman Rockefeller, Ranking Member Thune, Members of the 
Committee, distinguished panelists and guests, I am honored and pleased 
to have this opportunity to participate in a hearing on a topic about 
which I am passionate and committed: basic research. There is no 
substitute for deep understanding of natural and artificial phenomena, 
especially when our national and global well-being depend on our 
ability to model and make predictions regarding them. It would be hard 
to overstate the benefits that have been realized from investment by 
the U.S. Government and American industry in research.
    I am sure every member of this committee is well aware of the 
fundamental scientific paradigm: Theories are developed to explain 
observations or to speculate on how and why things might work. 
Experiments are undertaken to validate or refute the predictions of the 
theory. Theories are revised based on experimental results.
Basic and Applied Research
    While the primary focus of attention in this panel is on basic 
research, I feel compelled to observe that basic and applied research 
go hand-in-hand, informing and stimulating each other in a never-ending 
Yin and Yang of partnership. In some ways, applied research is a form 
of validation because the success (or failure) of the application may 
reinforce or contradict the theoretically predicted results and the 
underlying theory. Basic research tries to understand and applied 
research tries to do and often one must pursue both in the effort to 
uncover new knowledge.
    I would like to use the Internet as an example of applied research 
to make several points. The Internet was first conceived by Bob Kahn in 
late 1972. He and I worked together on the idea during 1973, publishing 
the first paper on its design in May 1974. It was launched 
operationally on January 1, 1983. Sponsored by the U.S. Defense 
Advanced Research Projects Agency (DARPA), the Internet drew strong 
motivation from its earlier and highly successful ARPANET and later 
Packet Radio and Packet Satellite projects. The Packet Satellite 
project also drew, in part, on the results of another project called 
ALOHAnet that had been sponsored by the U.S. Air Force Office of 
Aerospace Research (SRMA).
    First, successful applied research projects like the Internet may 
take a long time to mature. It was ten years from the conception to the 
deployment of the system and required persistent funding and advocacy 
during and after that period, to say nothing of the research and 
experimentation that preceded it.
    Second, while primarily an engineering and applied research 
project, the system did then and continues now to turn up new 
theoretical and analytical challenges. We are still evolving theories 
and models of the behavior of this complex, growing and evolving system 
as we measure, observe and analyze its performance. The applications of 
the Internet continue to drive research aimed at understanding and 
improving its operation or in inventing something better.
    Third, serendipity has played a significant role in the evolution 
of the Internet's functionality and the applications it supports. 
Networked electronic mail emerged as a major but unplanned application 
on the ARPANET. The World Wide Web (WWW), initially conceived in 1989 
to support sharing of research papers in particle physics at the Center 
for European Nuclear Research (CERN), spread rapidly on the Internet 
after the introduction of the MOSAIC browser by the National Center for 
Supercomputer Applications (NCSA) at the University of Illinois in 
Urbana-Champaign in late 1992 and the creation of the Netscape 
Communications corporation in 1994. The WWW has become the most widely-
used application on the Internet. Though the WWW was conceived for a 
particular application, its generality, and that of the underlying 
Internet, has created the conditions for a cornucopia of new uses that 
continue to be invented daily.
Research Takes Time
    Validation of basic research may also take a long time. The notion 
of the inflation of the early universe still awaits satisfactory 
confirmation. Postulated by Alan Guth (among others) around 1974, this 
year's recent results, from measurements taken by the BICEP2 
experiment, suggest evidence that this theory is correct, but there is 
significant debate about the interpretation of the measurements. While 
the community awaits further corroborating or refuting experimental 
validation of the measurements, it is important to recognize that the 
means to gather potentially validating experimental data took 30 years 
to reach maturity. A similar observation can be made for recent 
discovery of a Higgs boson by the Large Hadron Collider team at CERN. 
Peter Higgs and his colleagues postulated the existence of this 
fundamental particle and its associated field around 1964 but it has 
taken 50 years for the experimental capacity to test this theory to 
reach the point where such tests could be undertaken.
It's Risky: There are No Guarantees
    It is worth pausing for a moment to appreciate that research, by 
its very nature, cannot always guarantee results. Moreover, sometimes 
the results may come in the form of surprises. A canonical example is 
the discovery by Alexander Fleming, in 1928, that penicillium mold 
produces an antibiotic. He was reacting to an unexplained observation 
in some petri dishes he happened to notice. It was not until 13 years 
later in 1941 that the active compound we call penicillin was isolated. 
The best scientists are the ones who are alert to anomalies and seek to 
understand them. Nobel prizes don't go to scientists who ignore 
anomalies. They go to the scientists who see unexpected results and 
say, ``huh? That's funny!'' and try to find out what is behind an 
unanticipated observation.
    Humility is called for in this space. One hears the term ``Laws of 
Physics'' as if punishment awaits anyone or anything that dares to 
break them. And, yet, we know these so-called laws may be only 
approximations of reality--limited by the accuracy of our measurement 
tools and experimental capacity to validate their predictions. Every 
scientist must be prepared to cast aside or revise a pet theory if 
measurement and observation contradict it.
    Perhaps more important is the ability to sustain high risk, high 
payoff research. American industry can afford to take some risk but 
sustainable businesses are rarely in a position to invest in very long-
term research. Venture capital, while historically willing to take 
considerable risk, is looking for near-term payoffs. The ability to 
take sustained, long-term risk for potential long-term benefit falls 
largely to the government. The United States has benefited from 
underwriting this kind of research, as exemplified by the research 
programs of the National Science Foundation (NSF), the Defense Advanced 
Research Projects Agency, the National Institutes of Health, the 
National Institutes of Standards and Technology, among many other U.S. 
Government supported research programs.
    In this area, the U.S. Congress and the Committees focused on 
scientific research and development have the greatest roles to play. 
Consistent and increasing support for basic and applied research and 
advanced development has been the source of most major advances in 
science and technology in the past 70 years. The American economy has 
been the envy of the world, in large part because of this consistent 
cycle of long-term research and its application to near-term products 
and services.
The Importance of Failure
    Failure is the handmaiden of wisdom in the scientific world. When 
we make predictions or build systems based on our theoretical models, 
we must be prepared for and learn from our failures. Understanding the 
reason for failure is sometimes even more important than positive 
results since it may pave the way for far deeper understanding and more 
precise models of reality. In the scientific enterprise, the freedom to 
take risk and accept the potential of failure makes the difference 
between merely incremental refinement and breakthroughs that open new 
vistas of understanding.
    In the late 1800s it was thought that the Newtonian model of the 
universe was complete and that we merely needed to measure the physical 
constants more accurately to be able to make unequivocal predictions. 
In 1905, Einstein's four papers on the Photoelectric effect, Brownian 
motion, special relativity and mass-energy equivalence (E=Mc\2\) 
shattered the complacency of early 20th Century physics. He showed that 
purely Newtonian notions were inadequate to explain measured 
observations. He compounded his impact in 1915 with the publication of 
his monumentally important field equations of general relativity.
    Research into the nature of the atom led to the development of 
quantum field theory beginning in the 1920s. Efforts to reconcile its 
extremely counter-intuitive but extremely accurate predictions with 
Einstein's geometric theory of space-time have not borne demonstrable 
fruit. The irony of all this is that we now believe that the physics of 
the very small are extremely relevant to the study of the universe at 
large because the early universe at the moment of the so-called Big 
Bang was so small and dense and hot that quantum models appear to have 
dominated its behavior. Einstein's geometric theory simply breaks down 
under these conditions and provides no predictions of testable use.
    If we have learned anything over the course of the past hundred 
years, it is that we know less than we once thought we knew about the 
world around us. For scientists, this only means that the territory yet 
to be explored is simply larger than ever and that discovery awaits us 
at every turn.
The Role of Computing
    Richard Hamming is a legendary numerical analyst. As he famously 
observed: ``The purpose of computing is insight, not numbers.'' 
Computers, computation, networking and information sharing have become 
essential parts of the research landscape over the past 50 years. The 
World Wide Web and the search engines that have evolved around it have 
improved our ability to share and discover information and potential 
research partners on a global scale. New disciplines have emerged such 
as computational biology, computational chemistry and computational 
physics. We use increasingly detailed and accurate models to make 
predictions that we can test in the laboratory. The 2013 Nobel prize in 
chemistry went to three researchers for their models of molecular 
processes. From the Scientific American blog:

        ``. . . this year's prize in chemistry has been awarded to 
        Martin Karplus, Michael Levitt and Arieh Warshel for their 
        development of ``multiscale methods for complex systems''. More 
        simply put, these three chemists have been recognized for their 
        development and application of methods to simulate the behavior 
        of molecules at various scales, from single molecules to 
        proteins.'' \1\
---------------------------------------------------------------------------
    \1\ http://blogs.scientificamerican.com/the-curious-wavefunction/
2013/10/09/computational-chemistry-wins-2013-nobel-prize-in-chemistry/

    There is a renaissance in the application of computing to research, 
partly driven by the vast increase in computational power and memory 
found in combinations of cloud and super computing. ``Big data'' has 
become a mantra but it is fair to say that our ability to absorb, 
analyze and visualize vast quantities of measured or computed data has 
improved dramatically in the last few decades. We can use finer and 
finer-grained models, improve accuracy and timeliness of predictions, 
thanks to these capabilities. Computational biology may lead to 
breakthroughs in our ability to understand genetics, epi-genetics, the 
proteome and the importance of flora in our digestive systems. With 
this knowledge, we will help people live longer, healthier and more 
productive lives. Our ability to understand global phenomena will 
benefit from this computational renaissance.
    I would be remiss not to mention the Internet of Things that is 
fast upon us. The networking of common devices that surround and 
perfuse our society is rapidly becoming reality. From household 
appliances to office equipment, from industrial manufacturing to 
utilities, from transportation vehicles to personal monitoring 
equipment, we will live in an increasingly networked world. We will be 
surrounded by software. It is vital that we learn to design safety and 
security into these systems and to understand and be able to predict 
their aggregate behavior. This trend, too, illustrates the promise and 
the peril of our modern world. Cyber-security and cyber-safety must 
accompany our increasing use of computers, programmable devices and 
networks if we are to receive net benefit from these developments.
Nano-Materials
    Adjacent to and actually contributing to computational capacity we 
find nano-technology of increasing importance and value. Materials not 
found in nature have properties that defy intuition (e.g., invisibility 
and superconductivity). Graphene: sheets of carbon molecules, arrayed 
in one-atom-thick, hexagonal, ``chicken wire'' fashion, have unexpected 
potential for replacing silicon in transistors, for filtering 
impurities from water, for conducting heat and super-conducting 
electricity. Carbon is becoming both the bete noir and the deus ex 
machina of our civilization, depending on whether it is in the form of 
carbon dioxide, hydrocarbon fuels, or carbon nanotubes!
In the Interest and Pursuit of Science and its Application
    It is widely and correctly appreciated that science, technology, 
engineering and mathematics (STEM) form the basis for improving upon 
and making use of our understanding of how the phenomena of our world 
work. While there is persistent controversy regarding the supply of 
STEM-trained workers, there can be little doubt that there is an 
increasing demand in the workforce for these skills.
    As a recent president of the Association for Computing Machinery 
(ACM) and a member of the Google staff, I have been a strong proponent 
of the proposition that computer science should be a required part of 
the K-12 curriculum. Every student should have some exposure to the 
concept of programming, not only because it promotes logical thinking 
but also because it is important for everyone to understand and 
appreciate the potential weaknesses in all software-controlled systems. 
Computer science should be treated on a par with biology, chemistry, 
physics and mathematics in K-12 and undergraduate curricula, not simply 
as an elective that bears no STEM credit.
    The maker movement \2\ is perhaps one of the most important, 
emerging phenomena in modern culture. The rediscovery of the joy and 
satisfaction of making things is contributing to a rebirth of American 
interest in small-scale manufacturing and pride of workmanship. The 
development of so-called 3D printers has accelerated this phenomenon. 
Coupled with research programs in advanced manufacturing, stimulated in 
part by versions of the America COMPETES Act [P.L. 110-69 of 2007 and 
P.L. 111-358 of 2010), advanced manufacturing and the maker movement 
have the potential to recapture American initiative and interest in a 
space that historically had moved off shore.
---------------------------------------------------------------------------
    \2\ http://en.wikipedia.org/wiki/Maker_culture
---------------------------------------------------------------------------
    Voluntary programs such as Dean Kamen's FIRST \3\ Robotics 
competitions are representative of a wave of such initiatives that have 
the potential to rekindle the natural STEM interests of America's 
youth.
---------------------------------------------------------------------------
    \3\ http://www.usfirst.org/ [``For Inspiration and Recognition of 
Science and Technology'']
---------------------------------------------------------------------------
    It is sometimes said that we are all born natural scientists but 
that our educational system sometimes manages to erode this natural 
curiosity with poorly constructed curricular content and style of 
presentation. Computers and networks may have a role to play here as 
well.
    An early foray into Massive, Open, Online Classes (MOOCs) space was 
undertaken by two of my Google colleagues, Sebastian Thrun and Peter 
Norvig. They proposed to teach an online course in artificial 
intelligence, in cooperation with Stanford University. Expecting, at 
most, 500 people to sign up, they were stunned to find 160,000 people 
had applied to take the class. Critics pointed out that only 23,000 
completed the course--but I defy you to provide an example of any 
teacher of computer science who had taught that many students in the 
course of a career let alone one class!
    The early success of MOOCs has generated a justifiable excitement 
and formation of for-profit and non-profit efforts in this space. 
Serving classes of tens of thousands of students at a time, the 
economics of MOOCs is dramatic and compelling. A class of 100,000 
students, paying $10 each, generates $1M in revenue! Plainly, the 
scaling is the key leveraging factor. While absolutely not a panacea, 
the potential for delivering high quality content and individualized 
learning in appropriate educational areas has a transformative 
potential for an educational system that has not changed much in the 
last 200 years.
Conclusion
    In my opinion, support for basic and applied research is 
fundamentally justifiable based not only on the civil and economic 
benefits it has conferred but also on the ground-level understanding 
that basic research is high risk but has a high potential payoff. Only 
the Government has the capacity to sustain this kind of effort.
    I am proud to serve on the National Science Board where I am 
privileged to engage with colleagues on the Board and the National 
Science Foundation staff. The scientific research enterprise manifests 
there in the form of widely solicited proposals, a well-tested peer 
review system, dedicated and well-qualified program managers and 
strongly motivated and highly effective leadership.
    Successful scientific endeavors at NSF rely on a partnership among 
the research community, the National Science Foundation staff, 
leadership and board, and the members of the House and Senate who are 
equally committed to basic and applied research. Vannever Bush got it 
exactly right in his landmark report: Science, The Endless Frontier 
\4\. Science is an endless frontier. The more we learn, the more we 
know we don't know, and the more we must dedicate ourselves to learning 
and knowing more.
---------------------------------------------------------------------------
    \4\ https://www.nsf.gov/od/lpa/nsf50/vbush1945.htm

    The Chairman. Thank you, sir.
    Ms. Mariette DiChristina is Editor-in-Chief--this blows me 
away. You're the first woman to lead the 169-year-old 
Scientific American publication, which is the longest 
continuing publication in the United States of America. Am I 
right?

 STATEMENT OF MARIETTE DiCHRISTINA, EDITOR-IN-CHIEF AND SENIOR 
              VICE PRESIDENT, SCIENTIFIC AMERICAN

    Ms. DiChristina. It is.
    The Chairman. So you're on.
    Ms. DiChristina. Thank you.
    The Chairman. Don't forget to turn your----
    Ms. DiChristina. For me to follow that--yes. It's not----
    The Chairman. Yes. Good.
    Ms. DiChristina. Thank you.
    Thank you, Chairman Rockefeller, so much and Ranking Member 
Thune and the Committee for the honor and privilege of 
addressing you today about science.
    The Chairman. Can you pull that a little bit closer?
    Ms. DiChristina. A little closer?
    The Chairman. Thank you.
    Ms. DiChristina. How's this? Much better.
    So yes, my name is Mariette DiChristina. I am the Editor-
in-Chief of Scientific American, which has chronicled the power 
of U.S. research and innovation since 1845 when it was founded. 
Scientific American also founded the first branch for the U.S. 
patent agency in 1850. And among the visitors that came and 
visited the editor's offices was Thomas Edison. Albert Einstein 
wrote for Scientific American and so have more than 150 Noble 
laureates and many winners of the National Medals of Science 
and Technology.
    It reaches more than 3.5 million viewers and readers in 
print and more than 6 million online. And the readers include 
leaders in business and policy, educators, students, and 
science enthusiasts the world over. From this, I'm giving you a 
professional observer's opinion about science.
    Science is the engine of human prosperity. Economists have 
said, and it's been quoted many places, that a third to half 
U.S. economic growth has resulted from basic research since 
World War II; the cars and trains that got us here today. Think 
about it. The smart phones in our pockets, the energy that 
lights this chamber in this room, the clothes we wear, the food 
we eat: all of these things were developed and improved through 
basic research. But before these applications existed, 
researchers had to study the basic concepts that provided a 
sound underpinning, and they did those studies not necessarily 
knowing where they would lead.
    I know Einstein, for instance, was not at all thinking 
about the GPS in our smart phones when he formulated the Theory 
of Relativity. But, in truth, knowing how space-time works 
helps us fix those measurements from the GPS satellites. And 
Elizabeth Blackburn told me that she was just curious about 
what was at the end of chromosomes when she started studying 
the DNA of pond scum in the 1970s. The NIH started funding her 
research in 1978. And in 2009, she and two fellow NIH grantees, 
Carol Greider and Jack Szostak, won a Nobel for their work in 
understanding what's at the end of those chromosomes, 
structures called telomeres which we now understand to play an 
important role in human cancers and other diseases of aging.
    Examples like Elizabeth Blackburn show us why providing 
steady and sufficient support for basic research should be a 
national priority. We need to take the long view on R&D for the 
Nation's future just as we need to nurture our children over 
their entire K-12 academic careers just so they can succeed in 
an increasingly competitive global marketplace.
    Research, like those children, takes time to do right. 
Typical funding grants take 5 years, are 5 years long and it 
takes time to run those experiments, gather the data, analyze 
it properly, and confirm those findings. But our own track 
record in the U.S. proves that steady Federal funding support 
leads to success. U.S. Federal funding was key to nearly 90 
percent of almost 100 top innovations from 1971 to 2006 as 
identified by R&D Magazine.
    Our nation's ability to handle today's most pressing 
issues, from providing energy security, let's say to curing 
illnesses, to living sustainably in a finite world will require 
the innovations that come from basic research.
    It also does provide a good return. And a particularly 
strong example that people like to point out, the Human Genome 
Project paid back $141 per every dollar invested in it during 
the research period. In general, you should know that the 
return for publicly funded R&D is somewhere between 30 and 100 
percent. That's a pretty strong return.
    And from my perspective also, from the public's behalf, 
basic research can be really inspiring. Vint mentioned the 
Maker Movement which is such a phenomenon that the U.S. Office 
of Science and Technology Policy is actually holding Maker 
Faire events.
    But, even beyond that, let me give you another example. The 
Zooniverse website, for instance, lets anybody catalogue 
heavenly objects made from NASA photographs. It has more than a 
million volunteers participating actively in science. Thousands 
of Scientific American's own volunteers catalogued more than 
100,000 whale songs in just 2 months, which is the work of 
years in the lab.
    Unfortunately, since the 1980s, R&D spending overall has 
flattened out a bit and even declined in real dollars. But I 
agree with you, Mr. Chairman, that we need patience and 
endurance for this. Because of the length of time needed for 
research also, the sequester cuts will effect progress for 
years to come in forestalled and canceled work, and it will 
disproportionately effect and discourage some of our younger 
researchers.
    Meanwhile, countries such as China because, as you said, 
there is a choice to make, they're nipping at our heels. 
Earlier this year, in fact, China's rate of GDP investment just 
surpassed that of the 28 member-states of the European Union, 
and could exceed that of the U.S. itself in a little over half 
a decade, according to the 2014 Global R&D Forecast by Battelle 
and R&D Magazine. Japan, Denmark, Finland, Germany, Israel and 
Sweden already spend a greater percentage of their GDP on 
research than the U.S., according to World Bank.
    The strong educational pipeline, as you pointed out, is 
also critical. Over the past 10 years, STEM jobs grew three 
times as fast as non-STEM, says the U.S. Department of 
Commerce. And our leading technology companies are often 
challenged in filling the necessary openings.
    Last and in conclusion for one more view, I thought I'd ask 
a member of the next generation. I told my older daughter, 
Selina, who plans to double major in computer science and 
graphic design, yay, that I'd be speaking about this with you 
today, and I asked her what she would say about science. She 
said, ``That's easy, mom, it's the foundation of everything.''
    And so it is. Science is a system for exploring and for 
innovation. It can fuel our Nation's economic growth. It can 
form a path for our young people in a competitive global 
marketplace and it can inspire and fire our imaginations. 
That's why basic research deserves a prominent place on the 
national agenda and our steady commitment in investment.
    Thanks very much.
    [The prepared statement of Ms. DiChristina follows:]

Prepared Statement of Mariette DiChristina, Editor-in-Chief and Senior 
                  Vice President, Scientific American
    Thank you, honorable members of the Senate Subcommittee on 
Commerce, Science and Transportation, for the privilege of addressing 
you today about the importance of science and science education.
    My name is Mariette DiChristina, and I'm the Editor-in-Chief and 
Senior Vice President of Scientific American, the oldest continuously 
published magazine in the United States. It was founded in 1845, during 
the Industrial Revolution in the U.S. To foster innovation, Scientific 
American started the first branch of the U.S. patent agency in 1850. 
Samuel Morse, inventor of the telegraph, and Elias Howe, inventor of 
the sewing machine, were among the scientists and inventors who visited 
the offices. Thomas Edison showed the editors his phonograph. It asked 
them: ``How do you like the talking box?'' Albert Einstein wrote an 
article for Scientific American, as have more than 150 Nobel laureates 
and many winners of the National Medals of Science and Technology given 
by the White House.
    Despite its name, it's not a magazine aimed at scientists, although 
I'm pleased that some of them read it, too. Business leaders make up 
more than 50 percent of its audience of more than 3.5 million in print 
more than 6 million online--and nearly 20 percent are C-suite, looking 
to science for ways to grow their businesses. Of the 200 titles 
measured by MRI, it is number 6 for ``Influentials.'' Educators, 
students, policy leaders and science enthusiasts read Scientific 
American for innovation insights.
    At the same time, Scientific American has always had an educational 
mission to share the value and wonder of science. A subscription cost 
$2 a year in 1845, but in the first issue the editors promised it would 
be worth ``five times its cost in school instruction.'' The magazine 
detailed the research and technologies that won World Wars I and II, 
the great space race that landed U.S. men on the moon 45 years ago 
yesterday, the rise of computer science and electronics that have today 
transformed our lives in the modern world, among other things.
    Science is the engine of human prosperity. Economists have said 
that a third to a half of U.S. economic growth has resulted from basic 
research since World War II. The cars and trains that got us to this 
building, the smart phones we are all carrying, the energy we are using 
to run the lights in this chamber, the clothes we are wearing, the food 
we eat: All of these things were developed through the process that we 
call science. And before the conveniences that we enjoy today existed, 
researchers had to pioneer the basic concepts that provided a sound 
foundation for those applications--and they did that pioneering not 
necessarily knowing where it would lead. I know Einstein wasn't 
thinking about the conveniences we enjoy from GPS in our smart phones 
when he formulated his theory of relativity a hundred years ago, for 
instance. But knowing how spacetime works helps make our measurement 
from orbiting satellites accurate.
    For all of these reasons, we need to make it a national priority to 
provide steady and sufficient support for basic research in science, 
and to STEM education and public outreach. We need to take the long 
view on R&D investment for the Nation's continued future well-being, 
just as we need to nurture, educate and inspire our children over their 
K-12 careers so that they can succeed in an increasingly competitive 
global marketplace.
    Successful basic research takes careful work and patience. Typical 
funding grants are five years long. It takes time to run the 
experiments, gather the data, analyze it properly, and confirm the 
findings. Conducting basic research properly also means following human 
curiosity and exploring questions that may not have immediately obvious 
answers or applications.
    But our own U.S. track record of Federal investment shows that 
there is an important relationship between steady investment in that 
R&D and our success in innovation and economic growth. U.S. Federal 
funding was key to nearly 90 percent of almost 100 top innovations from 
1971 to 2006 identified by R&D Magazine, for example. Federal funding 
at DOE led to such innovations as the optical recording technology that 
lets us enjoy DVDs; the communications satellites that help us send 
information around the world, modern water-purification systems and 
supercomputers. NSF funding for a couple of students got us Google and 
also new technologies used in industries including biotech, advanced 
manufacturing and environmental resource management. DARPA's basic 
research led to GPS, the Internet, and Siri on iPhones. It's so easy to 
go on and on.
    Our success in addressing many of the key issues that face the 
Nation today, from ensuring our energy security to providing healthy 
foods to medical advances to cure illnesses to our ability to live well 
and sustainably in a finite world, will turn on the innovations that 
arise from basic science research.
    Basic research also provides a good direct return on investment. A 
report by research firm Battelle Technology Partnership Practice, for 
instance, estimates that between 1988 and 2010, Federal investment in 
genomic research generated an economic impact of $796 billion compared 
with $3.8 billion spent on the Genome Project between 1990-2003 
amounted to $3.8 billion. That's an ROI of $141 for each dollar 
invested.
    So today we are benefitting from past R&D investments. But our 
preeminence requires constant vigilance. The U.S. is still dominant in 
global research but our investments have flattened and declined in real 
dollars since the 1980s according to a report from the Congressional 
Budget Office on R&D and Productivity Growth. Because of the length of 
time needed for basic research, also, the Sequester cuts will affect 
progress for years to come in forestalled and canceled work. Meanwhile, 
countries such as China are fast nipping at our heels. China's rate of 
GDP investment earlier this year surpassed that of the 28 member states 
of the European Union, and it is on track to exceed that of the U.S. 
itself in a little over half a decade, according to the 2014 Global R&D 
Forecast by Battelle and R&D Magazine. Japan, Denmark, Finland, 
Germany, Israel and Sweden already spend a greater percentage of their 
GDP on R&D than the U.S., according to World Bank. Germany's strategy 
to boost economic growth has been to increase investment, lifting its 
own Federal expenditures by 21 percent since 2005. These investments 
played an important role in Germany's 3.6 percent growth in 2010 
compared with 2.9 percent growth rate in the U.S. during the same time 
period.
    The STEM pipeline in education is also critically important to that 
economic well-being. Seventeen of 20 of the fastest growing jobs for 
the next decade are in STEM-related fields, and our leading technology 
companies are often challenged in trying to fill the necessary 
openings.
    So basic research helps benefit our well-being, the Nation's 
economic growth, and the creation of jobs. It's also increasingly 
inspiring to the public who can now engage with it directly thanks to 
digital platforms. Although the headlines about celebrities don't show 
it, we know well at Scientific American how basic research has captured 
the public's imagination. Let's look the grass-roots level. We see two 
groundswells in participation by hundreds of thousands of people in 
enthusiasm around citizen science and the maker movement. Citizen 
scientists are people like you and me who can help scientists conduct 
basic research by making observations or in other ways. The Zooniverse 
Website, for instance, lets anybody catalog heavenly objects from NASA 
images. The Zooniverse has more than one million volunteer citizen 
scientists! Scientific American's own Whale.FM citizen-science project, 
which lets you match up snippets of whale songs, in two months 
catalogued more than 100,000 such calls--equal to a couple of years of 
work by lab researchers. Volunteers using the FoldIt protein-folding 
online game recently solved a puzzle that eluded HIV researchers for 15 
years. And the Maker movement is such a phenomenon that the U.S. Office 
of Science & Technology Policy is holding Maker Faire events.
    For one more viewpoint on the value of basic research, I thought 
I'd turn to a member of the next generation. I told my older daughter, 
Selina, who plans to double major in computer science and graphic 
design, that I would be speaking about this topic. I asked her what she 
would say about why science is important. How could I explain its 
importance, I asked her?
    ``That's easy, mom,'' she said to me. ``It's the foundation of 
everything.''
    And so it is. Science is not a set of facts or received wisdom 
that's been handed down. It's a system for innovation and advancement--
and humankind's best invention yet for pursuing the truth and an 
understanding of how the world works. It can fuel our economic growth 
as a nation, and form a path for our young people in a competitive 
global marketplace. And science can fire our imagination.
    It can bring out the best in our Nation and in us. That's why 
basic-science research needs our steady commitment and investment. 
Thank you for your kind attention.
References and Further Reading

    ``How the 2013 Budget Sequester Jeopardizes Science,'' Scientific 
American: http://www.scientificamerican.com/report/sequester-science/

    China tops Europe in R&D intensity, Nature: http://www.nature.com/
news/china-tops-europe-in-rd-intensity-1.14476

    2014 Global R&D Funding Forecast: http://www.battelle.org/docs/tpp/
2014
_global_rd_funding_forecast.pdf?sfvrsn=4

    The National Science Foundation: Background and Selected Policy 
Issues: http://fas.org/sgp/crs/misc/R43585.pdf

    Federal Research and Development Funding, FY 2015: http://fas.org/
sgp/crs/misc/R43580.pdf

    The High Return on Investment for Publicly Funded Research http://
www
.americanprogress.org/issues/technology/report/2012/12/10/47481/the-
high-return-on-investment-for-publicly-funded-research/

    Who Created the iPhone, Apple or the Government? http://
www.bloomberg
view.com/articles/2013-06-19/who-created-the-iphone-apple-or-the-
government-

    Past winners of National Medals of Science & Technology: http://
blogs
.scientificamerican.com/observations/2013/02/02/president-obama-awards-
national-medals-of-science-and-technology-at-the-white-house/

    There Should Be Grandeur: Basic Science in the Shadow of the 
Sequester: http://blogs.scientificamerican.com/guest-blog/2013/02/27/
there-should-be-grandeur-basic
-science-in-the-shadow-of-the-sequester/

    NIH Early Stage Investigator Policies: http://grants.nih.gov/
grants/new
_investigators/

    Congressional Budget Office: R&D and Productivity Growth (fig 2, p 
5): http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/64xx/
doc6482/06-17-r-d.pdf

    National Human Genome Research Institute. Calculating the Economic 
Impact of the Human Genome Project: http://www.genome.gov/27544383

    World Bank figures on R&D spending as percentage of GDP: http://
data
.worldbank.org/indicator/GB.XPD.RSDV.GD.ZS/countries/1W?display=default

    NASA inventions (including Invisible braces, scratch-resistant 
lenses, memory foam, ear thermometer, shoe insoles, long-distance 
telecomm, adjustable smoke detector, safety grooving on pavement, 
cordless tools, water filters.): http://www
.discovery.com/tv-shows/curiosity/topics/ten-nasa-inventions.htm

    ``When the Market Dips, Germany Invests in Research,'' The 
Chronicle of Higher Education: http://chronicle.com/
academicDestinationArticle/Germany-s-R-D-Investment/59/

    The Chairman. Thank you very, very much.
    And now we have Dr. Neal Lane. And I'm accustomed to you 
being in government not being a senior fellow somewhere. But, 
in any event, you're at the Technology Policy, Baker Institute 
for Public Policy; Malcolm Gillis University Professor and 
Professor of Physics and Astronomy at Rice University; Co-Chair 
of Committee on Models for U.S. Science and Technology Policy, 
American Academy of Arts & Sciences in Houston, Texas. So 
you're definitely geographic.
    And we welcome you and we welcome your testimony.

        STATEMENT OF NEAL LANE, SENIOR FELLOW IN SCIENCE

       AND TECHNOLOGY POLICY, BAKER INSTITUTE FOR PUBLIC

          POLICY, MALCOLM GILLIS UNIVERSITY PROFESSOR

          AND PROFESSOR OF PHYSICS AND ASTRONOMY, RICE

       UNIVERSITY; CO-CHAIR, COMMITTEE ON NEW MODELS FOR

          U.S. SCIENCE AND TECHNOLOGY POLICY, AMERICAN

                   ACADEMY OF ARTS & SCIENCES

    Dr. Lane. Thank you very much, Chairman Rockefeller, 
Ranking Member Thune. I'm delighted to be here. Thank you for 
holding this hearing, allowing me to join this distinguished 
panel.
    I very much appreciate your comment about Senator 
Hutchison. I had the great pleasure of working with the Senator 
over the years; she's such a great, strong supporter of 
science, engineering, research in this country. She even 
started an academy for medicine, engineering, science and 
technology in Texas.
    The Chairman. She did that?
    Dr. Lane. She put that academy in place----
    The Chairman. Interesting.
    Dr. Lane.--and continues to support those activities, but 
she supports science across the country, of course, because she 
recognizes how important it is to the nation's future.
    I would like to tell you a little bit about this project 
the American Academy of Arts and Sciences, a study group that I 
have the privilege to co-chair with Mr. Norm Augustine, a 
former CEO, retired CEO of Lockheed Martin and I think a person 
well-known to this committee. I want to emphasize my remarks 
are my own. They don't necessarily represent Rice or the 
Academy or the study group.
    We have a bipartisan committee of leaders from all sectors 
exploring how to ensure America's leadership in science, 
engineering and technology, and the long-term sustainability of 
the research enterprise will be accomplished. We started with 
three premises. First, that a strong U.S. economy is vital to 
the welfare and prosperity of the American people.
    Second, that in today's accelerating, high-tech, knowledge-
based technology, staying competitive requires innovation and 
the rapid infusion of new knowledge and technologies coming out 
of R&D investments.
    And third, that while the applied research and development 
are undeniably important, it's often that the path-breaking 
discoveries come out of basic research where one has no idea 
going in what the ultimate impact might be, and of course much 
of that basic research is funded by the Federal Government.
    Ironically though, at a time when the rest of the world, 
particularly China and other Asian countries have adopted our 
model which has worked so well, we in the U.S. seem to have 
lost our passion to compete. Recent data showed that the U.S. 
has slipped to tenth place among OECD nations and overall R&D 
investment as a fraction of GDP. And it continues to fall short 
of the 3 percent goal that several presidents have put forward. 
China is projected to outspend the U.S. in R&D in less than 10 
years in absolute terms and as a fraction of GDP, and my 
colleagues tell me--and this is most important in my view--many 
of my colleagues tell me that now the most important scientific 
papers in their fields, published in the most prestigious 
journals, are coming out of China.
    Industries make clear, as Dr. Cerf has indicated, that the 
Federal Government will have to be the primary funder of basic 
research since companies cannot justify to their stockholders 
that Federal support for basic research is now below the level 
as a percentage of GDP as it was in 1990. The good news, I 
believe, is that Federal research investments have long been 
viewed by presidents and members of Congress from both parties 
as vital to the national interest.
    Indeed, during the approximately 20-year period, 1975 to 
about 1992, Federal funding for basic research grew in 
inflation-adjusted dollars by over 4 percent per year; it's a 
remarkable sort of steady growth curve. But that was a time 
when all kinds of things were happening: we had a period of 
deep inflation; we had oil embargoes; we had back and forth 
between the leadership in both political parties. Nonetheless, 
Republicans and Democrats were able to agree that basic 
research should be a high priority for the nation.
    If that growth curve had continued to today, the Federal 
funding of basic research would be over 33 percent higher than 
it is right now. Our committee's report, though, will focus on 
two overarching challenges, or objectives.
    In order to ensure that the American people receive the 
maximum benefits from the Federal investments and research, 
we'll recommend three actions. First, increasing research 
productivity by streamlining unnecessarily burdensome Federal 
regulations and agency practices, also changing some university 
practices. Second, reaffirming the importance of Federal 
investments in research in all fields and the use of expert 
peer review managed by the agencies to select the very best 
people and ideas among competing ones. And third, increasing 
the flow of research discoveries to applications by encouraging 
universities to form stronger collaborations with industry.
    The second objective complements the first. In order to 
secure America's leadership in science and engineering 
research, especially basic research by providing sustainable 
Federal investments, we will recommend establishing appropriate 
goals for sustainable growth in Federal basic research funding 
and making changes in the Federal budget process to allow long-
term planning especially with regard to the capital cost of 
larger research facilities.
    In addition, we will offer recommendations to all sectors 
to develop more robust research partnerships and drive American 
innovation throughout the twenty-first century. That is likely 
to require a level of cooperation and coordination that we have 
not seen in many decades, if ever, in this country.
    The American Academy intends to release its report in early 
fall. I look forward to further discussions with the Committee.
    Mr. Chairman, Ranking Member Thune, thank you so much for 
inviting me to participate in today's important hearing.
    [The prepared statement of Dr. Lane follows:]

 Prepared Statement of Neal Lane, Malcolm Gillis University Professor, 
  Professor of Physics and Astronomy, Rice University; Senior Fellow, 
 Rice University's Baker Institute for Public Policy, On behalf of The 
 American Academy of Arts & Sciences Committee on New Models for U.S. 
                     Science and Technology Policy
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee: I am honored to be invited here today to discuss the Federal 
Government's investments in research. I am the Malcolm Gillis 
University Professor and Professor of Physics and Astronomy at Rice 
University, and also hold an appointment as the Senior Fellow in 
Science and Technology Policy at Rice University's Baker Institute for 
Public Policy. Prior to returning to Rice University, I served in the 
Federal Government during the Clinton Administration as Assistant to 
the President for Science and Technology and Director of the White 
House Office of Science and Technology Policy, from August 1998 to 
January 2001, and as Director of the National Science Foundation (NSF) 
and member (ex officio) of the National Science Board, from October 
1993 to August 1998.
    I am also honored to be a Fellow of the American Academy of Arts 
and Sciences and to appear on its behalf today. Founded in 1780 by John 
Adams and other scholar-patriots to encourage dialogue among leaders of 
science, the arts, business and public affairs, the American Academy of 
Arts & Sciences is an independent policy research institute that 
engaged in the study of complex problems vital to our Nation's future. 
Through its projects and studies, and publications like its recent 
ARISE I and ARISE II (Advancing Research in Science and Engineering) 
reports, the Academy pursues practical policy responses to pressing 
national and global problems.
    I am particularly honored to co-chair, with Norman R. Augustine, 
retired CEO and Chairman of Lockheed Martin Corporation, the American 
Academy's Committee on New Models for U.S. Science and Technology. This 
group has been working over the past year to develop recommendations of 
policy actions that we believe will help ensure the long-term 
sustainability of the U.S. science and engineering research enterprise. 
While my testimony today generally reflects the group's conclusions, I 
should state at the outset that my remarks represent my own views and 
not necessarily those of the study group, the American Academy, or Rice 
University.
The Role of Research in Sustaining Economic Prosperity
    In a 1988 radio address to the nation, President Ronald Reagan said 
that ``although basic research does not begin with a particular 
practical goal, when you look at the results over the years, it ends up 
being one of the most practical things government does . . . Major 
industries, including television, communications, and computer 
industries, couldn't be where they are today without developments that 
began with this basic research.'' Many presidents--Democrats and 
Republicans--have emphasized the importance of science, engineering and 
technology to the Nation's leadership in the world, the strength of its 
economy, and the welfare and prosperity of its people. And I want to 
emphasize that research, in this context, refers to all fields--the 
physical and life sciences (including medical research, mathematics, 
computer science, and engineering) and the social and behavioral 
sciences.
    As President Reagan and other presidents have realized, virtually 
every new technology is traceable to a research discovery or series of 
discoveries, often made by individuals having no idea of how their 
research might help create jobs and benefit millions of people in other 
ways years or even decades in the future. To expect continued 
technological advancement, a strong economy, job growth and other 
public benefits without investing in research is akin to operating an 
automobile factory without a receiving dock for raw materials.
    In short, new knowledge and technologies, which are the products of 
research, are the lifeblood of today's accelerating high-tech, 
knowledge-based economy. If the U.S. is to remain a leader in this new 
economy, it will have to ensure that it has a skilled workforce 
particularly in STEM (science, technology, engineering and mathematics) 
areas, and a robust science and engineering research enterprise that 
matches the challenge. It should be clear that both education and 
science and engineering research play a critical role in the economic 
and personal wellbeing of Americans in this ``Land of Opportunity.''
    This is what we used to call the ``American Dream.'' The American 
Dream is a national ethos whose foundation is rooted in opportunity: 
the opportunity for a quality job and career, a quality life, a quality 
education, and the opportunity for our children to achieve more and 
have a better life. It imbues the Nation with a spirit of hard-work and 
determination--if you study hard, work hard and play by the rules, you 
can have a good life. Late last year, we lost to cancer a great 
American and champion of science, engineering and education, Charles 
(Chuck) Vest, who grew up in West Virginia and became President of MIT 
and, more recently, served as President of the National Academy of 
Engineering. Chuck often spoke about having lived the American Dream. 
Growing up in the oil fields of Oklahoma, I have also lived the 
American Dream, and so did many of my generation. But we don't hear 
much about it anymore. America's expectations--and the hopes and dreams 
of Americans--seem less ambitious today, and that should scare us. 
Without opportunity, the American Dream fades, and with it a key part 
of our identity as a nation.
    Ensuring opportunity for all Americans will require significant 
improvements in education and learning, especially in STEM areas, as 
well as a strong economy. With regard to economy, research has 
demonstrated a strong correlation between job growth and Gross Domestic 
Product (GDP)--creating jobs on a large scale requires growing the 
Nation's GDP. Numerous studies, including Robert Solow's Nobel Prize-
winning research, have shown that the predominant driver of GDP growth 
over the past half-century has been scientific and technological 
advancement. It seems likely, given the current accelerating pace of 
progress in science, engineering and technology, that this observation 
will continue to hold for the decades ahead.
    Yet too often the role of research, particularly basic research, in 
the Nation's scientific and technological advancement has been 
undervalued. Hunter Rawlings, the president of the American Association 
of Universities, has observed that the fundamental technologies that 
underlie today's remarkable consumer electronics, including GPS, multi-
touch screens, LCD displays, lithium-ion batteries, and cellular 
networks, were all derived from research supported by the Federal 
Government and conducted in universities and government laboratories. 
Of course, America has led in these areas because it has a diversity of 
companies--large and small--which have been willing to take risks, try 
new innovative practices, invest in their own R&D needs, and take 
chances on new technologies. America also has an investment community 
willing to help fund these efforts and regulations to insure fair 
competition in the marketplace. But basic research, much of which is 
government-funded, is necessary to cultivate an ecosystem rich enough 
in new knowledge and ideas to enable these breakthrough achievements.
    The power of America's economic system and the role its 
universities, industry and government have played in its effectiveness 
have not gone unnoticed by other countries competing in the global job 
market. In fact, they seek not only to copy it but to improve upon it. 
The influential National Academies' report Rising Above the Gathering 
Storm and its updates \1\<SUP>,</SUP>\2\ make the case that instead of 
racing to meet the challenge, America instead is permitting this highly 
successful system of discovery and innovation, that has served this 
Nation well since the end of WWII, to atrophy. This is not a formula 
for success in a highly competitive world that is advancing at an 
accelerating rate.
---------------------------------------------------------------------------
    \1\ National Academy of Sciences, National Academy of Engineering, 
and Institute of Medicine. Rising Above the Gathering Storm: Energizing 
and Employing America for a Brighter Economic Future. (Washington, 
D.C.: The National Academies Press, 2007).
    \2\ National Academy of Sciences, National Academy of Engineering, 
and Institute of Medicine. Rising Above the Gathering Storm, Revisited: 
Rapidly Approaching Category 5. (Washington, D.C.: The National 
Academies Press, 2010).
---------------------------------------------------------------------------
The Role of the Federal Government
    If science, engineering and technology are key drivers of economic 
growth, as the evidence strongly indicates, one metric of the adequacy 
of a nation's commitment to the future of its citizens is its total 
investment in R&D as a fraction of GDP, relative to competitor nations. 
The total U.S. investment (\1/3\ public and \2/3\ private \3\) in R&D 
continues to fall short of the national goal adopted by several U.S. 
presidents of 3 percent of GDP, even as America's economic competitors 
move aggressively to increase their own investments. The U.S. has 
fallen to 10th place among OECD countries (Figure 1). For example, 
China's R&D investment is growing at an average annual rate of 8 
percent above inflation, and is on a path to overtake the U.S. in just 
8 years. America is failing to make the R&D investments that are 
necessary to remain a global leader in industry and commerce.
---------------------------------------------------------------------------
    \3\ Although industry funds 2/3 of total U.S. R&D, it is worth 
noting that the vast majority of this funding (95 percent) is devoted 
to applied research and development. Over half of all basic research is 
funded by the Federal Government (55 percent of total national basic 
research funding).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. The U.S. is failing to keep pace with competitors' 
---------------------------------------------------------------------------
investments in R&D.

    Among OECD nations, the U.S. ranks 10th in national R&D investment 
as a percentage of GDP, or R&D intensity. As China's R&D intensity (red 
line) rapidly grows at an average of 8 percent per year in pursuit of 
the globally-recognized 3 percent GDP goal, U.S. investments (blue 
line) have pulled back. At this pace, China will surpass the U.S. by 
this measure in about eight years.

    Data Source: OECD, Main Science and Technology Indicators, 2013, 
Gross Domestic Expenditures on R&D as a percentage of GDP. Available 
at: http://stats.oecd.org/.

    These disturbing trends have created a gap between what America is 
investing and what it should be investing to reclaim our global 
competitiveness and ensure a strong future economy. This has been 
described as running an ``innovation deficit'' \4\
---------------------------------------------------------------------------
    \4\ See http://www.innovationdeficit.org/.
---------------------------------------------------------------------------
    To be sure, most of America's innovation and high-quality jobs are 
created in private industry. But companies depend on a continuous 
stream of new scientific discoveries and early-stage technologies that 
flow from the Federal Government's investments in research, 
particularly basic research, carried out at research universities and 
national laboratories. Companies working closely with academic and 
government researchers benefit most from timely translation of research 
results into marketable applications and from early access to talented 
scientists and engineers trained largely at American universities.
    Some may ask why America shouldn't just let other nations pay for 
the research and then simply apply the resulting discoveries to grow 
markets and create jobs within our own borders. That approach may have 
worked for other nations in the past, but it is not a winning strategy 
for the future. Given the pace at which technological innovation is 
accelerating today, being second to market is now considered by many 
executives to be tantamount to failure. Craig Barrett, the retired CEO 
of Intel, has noted that 90 percent of the revenues that firm receives 
at the end of its Fiscal Year are derived from products that did not 
even exist at the beginning of that year.\5\ Such a system would not 
work without a rich base of knowledge and discoveries and strong links 
to industry.
---------------------------------------------------------------------------
    \5\ N.R. Augustine, Is America Falling Off the Flat Earth? 
(Washington, D.C.: The National Academies Press, 2007).
---------------------------------------------------------------------------
    Some have expressed the hope that the decline in the Federal 
investment in research could be compensated by increased investments in 
other sectors. This hope is almost certainly in vain: companies are 
increasingly concentrated on applied research and development, arguing 
that they cannot justify spending money on basic research which could 
benefit other companies, public research universities are in no 
position to substantially increase research investments due to 
declining state support; and philanthropic organizations and 
individuals, while an important and growing source of support for 
American science, still contribute a small portion of the national 
research investment. Foundations spend about $2 billion annually on 
basic research.\6\ While this is a substantial contribution, it 
represents less than 3 percent of total national spending on basic 
research.\7\
---------------------------------------------------------------------------
    \6\ Based upon estimates from the Foundation Center: ``Distribution 
of Foundation Grants by Subject Categories, circa 2011'' in the 
categories of ``Medical Research'' and ``Science and Technology''. See 
http://foundationcenter.org/findfunders/statistics/pdf/04_fund_sub/
2011/10_11.pdf.
    \7\ Fiona Murray, ``Evaluating the Role of Science Philanthropy in 
American Research Universities,'' Innovation Policy and the Economy, 13 
(2013):1-40.
---------------------------------------------------------------------------
    This leaves the Federal Government as the primary supporter of 
fundamental research for the foreseeable future. Thus, the recent 
decline in the Federal investment in basic research has left the U.S. 
in danger of being overtaken by other nations that are rapidly 
advancing in science, engineering and technology.
    Two goals must be met in order to reverse this trend. First, we 
must ensure that the American people receive maximum benefits from 
Federal investments in research, in part by strengthening partnerships 
across governments, universities, and industry and business. Second, we 
must develop a sustainable approach to research funding.
    These two goals have guided the work of the American Academy 
committee that I have the privilege to co-chair with Norman R. 
Augustine. I will briefly discuss what our 23 eminent colleagues, who 
include Nobel laureates, corporate executives, university presidents 
and deans, and other leaders in science and engineering,\8\ have 
determined must be done in the near future to achieve these goals.
---------------------------------------------------------------------------
    \8\ www.amacad.org/newmodels
---------------------------------------------------------------------------
Ensuring that the American People Receive Maximum Benefits from 
        Federal Investments in Research
    As I have argued earlier, Federal research investments are vital to 
America's leadership in SE&T. But many current policies and practices 
in government, industry and universities hinder the most effective use 
of those investments. Given the accelerating pace of technological 
advancement in many parts of the world, particularly in Asia, a rapid 
response is needed. Policy changes in all sectors are necessary to 
accelerate the discovery of new knowledge and the translation of new 
insights and tools into technological innovation to ensure that the 
American people enjoy the benefits of their investment in research.
    First, we must streamline those regulations and practices governing 
federally-funded research that add to universities' administrative 
overhead while yielding questionable benefits. No more cost-effective 
step could be taken to increase the productivity of America's 
researchers, particularly those based at universities. Unquestionably, 
the Federal Government has an obligation to ensure that the money it 
provides to universities to support research on their campuses is used 
for the intended purposes and that research practices are held to high 
standards of performance--thus, regulations and administrative policies 
are necessary. However, many regulations and business practices are 
ineffective, vary from agency to agency across the Federal Government, 
and constitute unnecessary and costly burdens to researchers and their 
institutions that have the unintended consequences of reducing research 
productivity and forcing the institutions to use their own funds to 
cover the portion of research administrative costs not funded by the 
agencies. The full set of relevant regulations and practices should be 
examined with the objective of maximizing the effectiveness of the 
Federal research investment.\9\
---------------------------------------------------------------------------
    \9\ See, for example, the March 2014 National Science Board report, 
Reducing Investigators' Administrative Workload for Federally Funded 
Research.
---------------------------------------------------------------------------
    Second, all parties must work together to uphold America's 
unparalleled system of expert peer review. Competitive expert peer 
review is the best way to assure excellence. Hence, peer review should 
remain the mechanism used by Federal agencies to make research award 
decisions, and review processes and criteria should be left to the 
discretion of the agencies themselves. In the case of basic research, 
scientific merit, based on the opinions of experts in the field, should 
remain the primary consideration for awarding support. This system has 
been used, successfully, for well over half a century. No better system 
has been devised, particularly for basic research where the likely 
outcome cannot be predicted.
    Third, the public benefits of Federal research investments can be 
more readily realized by establishing a more robust national 
government-university-industry research partnership. Other countries 
recognize this need and are taking active steps to put such national 
research partnerships in place. Yet in the U.S., the accumulation of 
decades of policies and practices in each sector, as well as shifting 
priorities of the states and unpredictable Federal research funding 
levels, are allowing our Nation to slip steadily behind.
    The Bayh-Dole Act (Patent and Trademark Law Amendment Act), signed 
into law in 1980, allows universities, small businesses and not-for-
profit organizations to pursue ownership of an invention arising from 
federally funded research, subject to a number of conditions. This 
landmark legislation has been highly effective in getting IP into the 
hands of companies that can develop products from the technology and 
move them to market, and has enabled a small number of universities to 
derive substantial income from licensing. However, the majority of 
universities have found that the cost of maintaining a technology 
transfer office, filing for patents, and negotiating IP licensing 
exceeds the income generated from licensing. Licensing negotiations 
with companies can also pose a high barrier to collaboration, often 
delaying or preventing the transfer of technologies to a company and, 
potentially, a market. These realities have spurred many universities 
to reconsider the value of IP ownership. Some universities are 
experimenting with new policies to enhance the transfer of IP to the 
market and are implementing novel technology transfer practices in line 
with this policy. More universities should pioneer such experiments, 
the outcomes of which should be evaluated to derive best practices. And 
as universities choose to adopt more flexible approaches to handling 
IP, companies should explore forming stronger research partnerships 
with universities for mutual benefit.
    University and corporate leadership and cooperation will be the key 
to advancing these reforms; and the professional science and 
engineering societies will continue to play an important role by 
keeping their members informed about best practices. The Federal 
Government should encourage universities to explore steps in this 
direction, including experimenting with innovative models for 
technology transfer, enhancing early exposure of students (including 
doctoral students) to a broad range of non-research career options, and 
increasing the interactions of university researchers with industry.
    The result can be a richer, more innovative research environment 
that benefits all participants. The opportunity for strengthening the 
university-industry partnership has never been better.
    Making the R&E (Research and Experimentation) tax credit permanent, 
as recommended by the National Academies, the American Academy, the 
Business Roundtable, the President's Council of Advisors on Science and 
Technology (PCAST), and many others, would provide an incentive for 
industry to invest in long-term research, including collaborative 
research with universities. Not doing so significantly reduces the 
potential benefits that federally supported academic research can 
provide to American taxpayers. That fact should override any arguments 
for the status quo.
    Another recommendation that has been made by many other 
organizations, including PCAST \10\ and the National 
Academies,\11\<SUP>,</SUP>\12\ is to increase the number of H-1B visas 
and reshape policies affecting foreign-born researchers. Graduate 
students from around the globe seek an advanced education at American 
research universities, not only for the quality of training they 
receive but to advance their careers. For these reasons and others, 
most of these talented international students and researchers would 
stay in the U.S. if given the opportunity. However, international 
competition for talented scientists and engineers has grown fierce. If 
we fail to both attract and retain the best and brightest scientists 
and engineers, we risk not only steering American entrepreneurs 
overseas in their search for highly skilled workers, but further 
exacerbating the current shortage of educated workers that fuel 
American R&D and high-tech manufacturing sectors.
---------------------------------------------------------------------------
    \10\ President's Council of Advisors on Science and Technology, 
Transformation and Opportunity: The Future of the U.S. Research 
Enterprise, 2012.
    \11\ National Academy of Sciences, National Academy of Engineering, 
and Institute of Medicine. Rising Above the Gathering Storm: Energizing 
and Employing America for a Brighter Economic Future. (Washington, 
D.C.: The National Academies Press, 2007).
    \12\ National Research Council. Research Universities and the 
Future of America: Ten Breakthrough Actions Vital to Our Nation's 
Prosperity and Security. (Washington, D.C.: The National Academies 
Press, 2012).
---------------------------------------------------------------------------
Securing America's Leadership in Science and Engineering Research--
Especially Basic Research--by Providing Sustainable Federal Investments
    Reestablishing America's competitiveness as a nation will require 
that federally funded research, particularly basic research, become a 
higher priority than has been the case in over two decades. In 
emphasizing basic research, I am not suggesting that the Federal role 
in supporting applied research and development are unimportant--such 
activities support the missions of many Federal agencies. But basic 
research is often where the breakthroughs occur that change paradigms 
and revolutionize technologies. The research efforts that led to the 
invention of the transistor and laser were not the result of trying to 
design a better vacuum tube or light bulb.
    During the 18 years from 1975 to 1992, the Federal investment in 
basic research grew at an average annual inflation-adjusted rate of 
over 4 percent, despite serious challenges including the 1973 oil 
embargo, the Great Inflation of 1979-1982, and the final tumultuous 
years of the Cold War. Leaders in both parties, in the White House and 
Congress, were able to agree that investments in research should be a 
particularly high priority for Federal support. In recent years, 
however, the Nation's research funding has stagnated. As a function of 
U.S. economic output, Federal support for basic research is actually 
lower than it was twenty years ago.
    While I recognize the difficulty of significantly growing Federal 
research funding in a period of fiscal constraint, it would be 
difficult to overstate the urgency of once again putting research 
funding on a sustainable growth path. Investments in basic research are 
just that: investments. America's economic ascendency in the 20th 
century was due in large part--perhaps even primarily--to its 
investments in science and engineering research. Basic research lies 
behind every new product brought to market, every new medical device or 
drug, every new defense and space technology, and many innovative 
business practices. Given the accelerating pace of technological 
advancement in many parts of the world, particularly in Asia, it 
follows that the U.S. must accelerate both discovery of new scientific 
knowledge and translation of that knowledge to useful purpose.
    Simply put, if the U.S. is to remain a leader in providing these 
benefits, the Federal Government must make the necessary investments. 
Failure to act now may put us in a position from which we cannot 
recover, given the fast pace of global scientific advancement.
Conclusion
    The American Academy report, to be released in early fall, will 
outline a series of specific actions that could be taken immediately to 
achieve the goals I have described. I look forward to sharing our ideas 
with this Committee. Real progress will depend on the extent to which 
the public and private sectors can cooperate effectively in support of 
a coherent national roadmap to strengthen the U.S. research enterprise, 
and to drive American innovation throughout the 21st century. As the 
President observed in this year's State of the Union address, ``We know 
that the Nation that goes all-in on innovation today will own the 
global economy tomorrow. This is an edge America cannot surrender.''
    I look forward to your questions. Thank you again for the 
invitation to appear today.
                                 ______
                                 
                               Biography
                              Neal F. Lane
                  Malcolm Gillis University Professor
   Senior Fellow, Rice University's Baker Institute for Public Policy
                  Department of Physics and Astronomy
                            Rice University
                http://www.ruf.rice.edu/neal/index.htm
     http://www.bakerinstitute.org/personnel/fellows-scholars/nlane
                        (E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4bab1b5b894a6bdb7b1fab1b0a1">[email&#160;protected]</a>)

Dr. Neal Lane is the Malcolm Gillis University Professor and Professor 
of Physics and Astronomy at Rice University in Houston, Texas. He also 
holds an appointment as Senior Fellow in Science and Technology Policy 
at Rice University's Baker Institute for Public Policy.

    Prior to returning to Rice University, Dr. Lane served in the 
Federal Government during the Clinton Administration as Assistant to 
the President for Science and Technology and Director of the White 
House Office of Science and Technology Policy, from August 1998 to 
January 2001, and as Director of the National Science Foundation (NSF) 
and member (ex officio) of the National Science Board, from October 
1993 to August 1998.
    Before becoming the NSF Director, Dr. Lane was Provost and 
Professor of Physics at Rice University in Houston, Texas, a position 
he had held since 1986. He first came to Rice in 1966, when he joined 
the Department of Physics as an assistant professor. In 1972, he became 
Professor of Physics and Space Physics and Astronomy. He left Rice from 
mid-1984 to 1986 to serve as Chancellor of the University of Colorado 
at Colorado Springs. In addition, from 1979 to 1980, while on leave 
from Rice, he worked at the NSF as Director of the Division of Physics.
    Widely regarded as a distinguished scientist and educator, Dr. 
Lane's many writings and presentations include topics in theoretical 
atomic and molecular physics and science and technology policy. Early 
in his career he received the W. Alton Jones Graduate Fellowship and 
held an NSF Doctoral Fellowship (University of Oklahoma), an NSF Post-
Doctoral Fellowship (while in residence at Queen's University, Belfast, 
Northern Ireland) and an Alfred P. Sloan Foundation Fellowship (at Rice 
University and on research leave at Oxford University). He earned Phi 
Beta Kappa honors in 1960 and was inducted into Sigma Xi National 
Research Society in 1964, serving as its national president in 1993. He 
served as Visiting Fellow at the Joint Institute for Laboratory 
Astrophysics in 1965-66 and 1975-76. While a Professor at Rice, he was 
two-time recipient of the University's George R. Brown Prize for 
Superior Teaching.
    Through his work with scientific and professional organizations and 
his participation on review and advisory committees for Federal and 
state agencies, Dr. Lane has contributed to public service throughout 
his career. He is a fellow of the American Physical Society, the 
American Academy of Arts and Sciences (member of its governing 
council), the American Association for Advancement of Science, and the 
Association for Women in Science. He serves on several boards and 
advisory committees.
    Dr. Lane has received numerous prizes, awards, including the AAAS 
Philip Hauge Abelson Award, AAAS William D. Carey Award, American 
Society of Mechanical Engineers President's Award, American Chemical 
Society Public Service Award, American Astronomical Society/American 
Mathematical Society/American Physical Society Public Service Award, 
NASA Distinguished Service Award, Council of Science Societies 
Presidents Support of Science Award, Distinguished Alumni Award of the 
University of Oklahoma, and over a dozen honorary degrees. In 2009, Dr. 
Lane received the National Academy of Sciences Public Welfare Medal, 
the American Institute of Physics K.T. Compton Medal for Leadership in 
Physics, and the Association of Rice Alumni Gold Medal for service to 
Rice University.
    Born in Oklahoma City in 1938, Dr. Lane earned his B.S., M.S., and 
Ph.D. (1964) degrees in physics from the University of Oklahoma. His 
thesis advisor was Chun C. Lin (now at the University of Wisconsin--
Madison). He is married to Joni Sue (Williams) Lane and has two 
children, Christy Saydjari and John Lane, and four grandchildren, Allia 
and Alex Saydjari, and Matthew and Jessica Lane.

    The Chairman. Thank you, sir, very much.
    Dr. Stephen Fienberg, the Maurice Falk University Professor 
of Statistics and Social--you're a neighbor; right? To West 
Virginia University?
    Dr. Fienberg. Indeed, sir.
    The Chairman. And, in fact, we collaborate; do we not?
    Carnegie Mellon is in that, University of Pittsburgh. I 
mean there's a nice collaboration.
    Anyway, Professor of Statistics and Social Science, 
Department of Statistics, the Machine Learning Department, the 
Heinz College of, I can't pronounce it, Cylab, Carnegie Mellon 
University of Pittsburgh, Pennsylvania.
    Can I just say that, as I'm looking at the four of you, I'm 
very much missing Chuck Vest. He came before this committee 
many times. Sometimes uninvited. He just invited himself----
    [Laughter.]
    The Chairman.--because he wanted us to understand all of 
the things that you're talking about. And he was absolutely 
militant about it. He was head of MIT for 13 years; the 
Department of Engineering for a long time. You know, he is just 
an absolutely marvelous human being and I miss him very much. 
Just listening----
    Dr. Fienberg. So do we all.
    The Chairman.--all of you.
    Please, sir.

          STATEMENT OF STEPHEN FIENBERG, MAURICE FALK

         UNIVERSITY PROFESSOR OF STATISTICS AND SOCIAL

         SCIENCE, DEPARTMENT OF STATISTICS, THE MACHINE

            LEARNING DEPARTMENT, THE HEINZ COLLEGE,

             AND CYLAB, CARNEGIE MELLON UNIVERSITY

    Dr. Fienberg. Good afternoon, Mr. Chairman and Ranking 
Member, Senator Thune.
    I was a member of the National Academy's committee on 
assessing the value of research in advancing national goals, 
and that was established with funds from NSF pursuant to the 
American COMPETES Act. Today, I'll share with you highlights 
from our report Furthering America's Research Enterprise which 
we have shared with you and the staff of the Committee. I, too, 
miss Chuck Vest. He was a dear friend and he worked hard with 
the Committee to help us focus on our task.
    The question before us is: How can we effectively and 
efficiently enhance the benefits of scientific research and 
keep the Nation at the forefront of global competition for new 
technologies and innovations? In seeking answers, Congress and 
in particular this committee asked the academies to study 
measures of the impacts of research on society.
    Some measures of research outputs give useful indications 
of how well the system is performing. But they can't depict the 
complex interconnected systems of research in innovation and 
the highly non-linear pathways that lead from research to 
technologies and other innovations. We found that the current 
measures are inadequate to guide national decisions about what 
research investments will expand the benefits of science. 
Moreover, we noted that the U.S. lacks in institutionalized 
capacity for systematically evaluating the Nation's research 
enterprise, taken as a whole, in assessing its performance 
developing policy options for federally-funded research.
    Nevertheless, our committee concluded that the American 
research enterprise is indeed capable of producing increased 
benefits for U.S. society. To reap those benefits, however, we 
need to understand what's made our research enterprise so 
extraordinarily productive. It is because it reflects the 
character of American free enterprise. It's decentralized, 
pluralistic, competitive and meritocratic. And finally, it's 
entrepreneurial; encouraging risk taking.
    To increase the benefits of research, the Federal 
Government must focus less on commercialization of research 
discoveries and certainly not on predicting the scientific 
fields that would lead to it that is predicting the winners. 
Rather, just as for business, government must focus on policies 
that promote the conditions for the research enterprise to 
thrive, what we, in our report, label as three crucial pillars. 
The first is a talented interconnected workforce developed 
through education and research training. Talent also comes from 
highly skilled immigrants, partnerships, support of research 
environments and worldwide scientific networks.
    Adequate and dependable resources constitute the second 
pillar. Stable, flexible and predictable Federal funding 
encourages talented students to pursue scientific careers. It 
keeps established researchers engaged. It attracts and retains 
foreign talent. And it inspires the pursuit of riskier and more 
innovative research.
    The third pillar is world-class basic research in all areas 
of science. Basic research pursued primarily to increase 
understanding and not necessarily toward a technological goal, 
provides the foundation of discovery and knowledge for 
economically significant innovations in the future.
    These pillars interact. In the Department of Statistics at 
Carnegie Mellon, we employ and train our Ph.D. students with 
Federal and other support for basic research. But that support 
also creates a research environment in which we engage, 
stimulate and train many undergraduates and Masters Students. 
Those students represent the future of our scientific 
workforce.
    World class basic research in all major areas of science is 
important because truly transformative scientific discoveries 
increasingly depend on research in a variety of fields. The 
development of the Google Page-Rank algorithm illustrates this 
especially well. In its 1997 patent application for the 
algorithm, it acknowledged support from NSF. It drew heavily on 
multiple discoveries spending nearly 45 years of social and 
information science research, and it included decades-old 
research on methods to determine social status and to study 
social networks.
    We do indeed need to improve our measures of research 
activities, including outputs and technology transfer. But 
greater benefit will come from measures that guide the pillars 
of the research enterprise. If we cultivate talent, provide 
adequate and dependable resources, and invest in the diversity 
of basic research, fresh discoveries will continue to power our 
economy, and to enrich our lives in unpredictable and 
unimaginable ways.
    Thank you.
    [The prepared statement of Dr. Fienberg follows:]

  Prepared Statement of Stephen E. Fienberg, Maurice Falk University 
      Professor of Statistics and Social Science, Carnegie Mellon 
University, Pittsburgh, PA and Member, Committee on Assessing the Value 
  of Research in Advancing National Goals, Division on Behavioral and 
Social Sciences and Education, National Research Council, The National 
                               Academies
    Good afternoon, Mr. Chairman and members of the Committee. My name 
is Stephen Fienberg. I am Maurice Falk University Professor of 
Statistics and Social Science at the Carnegie Mellon University with 
appointments in the Department of Statistics, the Heinz College, and 
the Department of Machine Learning, and I served as a member of the 
Committee on Assessing the Value of Research in Advancing National 
Goals of the National Research Council. The National Research Council 
is the operating arm of the National Academy of Sciences, National 
Academy of Engineering, and the Institute of Medicine of the National 
Academies, chartered by Congress in 1863 to advise the government on 
matters of science and technology. The Committee was established with 
funding from the National Science Foundation pursuant to Section 521 of 
the America COMPETES Act of 2011. Today I will share with your 
Committee some of the highlights of our report, Furthering America's 
Research Enterprise, and I append to my remarks a list of members of 
the study committee and the Table of Contents of the report.
The context
    The benefits of the Federal investment in scientific research are 
manifest and have enabled the United States to achieve unprecedented 
prosperity, security, and quality of life. But the Nation now faces 
increased global competition for new technologies and other 
innovations, in the face of growing economic exigencies. Congress wants 
to enhance the benefits of scientific research for the U.S. economy and 
other purposes and to keep the Nation at the forefront of global 
competition for new technologies and other innovations.
    How can that be done effectively and efficiently? In particular, 
how can we increase the returns on current Federal investments in 
scientific research? In seeking answers to those questions, Congress 
asked the Academies to study measures of the impacts of research on 
society, especially those that could serve to increase the translation 
of research into commercial products and services. Also of interest was 
the use of such measures for purposes of accountability. The purview of 
the study was all federally supported research.
The Committee's Findings
I. Current measures are inadequate
    While some measures of research outputs and benefits are useful for 
specific purposes, the Committee found that current measures are 
inadequate to guide national decisions about what research investments 
will expand the benefits of science.
    The problem is that metrics used to assess any one aspect of the 
research system in isolation, without a strong understanding of the 
larger picture, may prove misleading. The benefits of research 
investments tend to arrive unpredictably, vary widely in eventual 
value, and require substantial additional investment (as well as 
investment in other fields of science) to realize their economic payoff 
through innovation. With few exceptions, approaches to measure the 
impacts and quality of research programs cannot depict the diffuse, 
interconnected and highly non-linear pathways that lead from research 
to technologies and other innovations. The widespread adoption of the 
innovation is a process that itself requires investment and substantial 
know-how.
    Existing metrics give some indication of how well the system is 
performing, but the ultimate impacts, the emergent phenomena that truly 
matter to society such as an abundant supply of natural gas enabled by 
fracking technology, communications and commerce enabled by Google and 
the Internet, and medical advances enabled by genomics depend on a 
number of critical components, and the relationships among them, in the 
complex systems of research and innovation. These components often are 
intangible, including opportunities and relationships that are not 
captured by most data collection programs and cannot be measured by 
currently available methods.
II. Reaping further benefits
    The committee concluded that the American research enterprise is 
indeed capable of producing increased benefits for U.S. society, as 
well as for the global community. To reap those benefits, however, we 
first need to understand what has made the American research enterprise 
so successful: what drives it and why has it been so productive.
    Our research enterprise has been so successful because it has 
evolved as a complex, dynamic system with many of the characteristics 
of American free enterprise. It is decentralized. It is pluralistic, 
driven by a diverse array of researchers, companies, institutions, and 
funding agencies. It is competitive, requiring researchers and 
organizations to compete for funding, for talent, for positions, for 
publications, and for other rewards. It is meritocratic, bestowing more 
significant rewards on those with highly competitive ideas and 
abilities through a built-in quality control system of peer review. And 
finally, it is entrepreneurial: it allows for risk taking, for facing 
the prospect of failure head on to reap potentially great rewards.
    Just as business thrives in free enterprise for its products and 
services, so too does our extraordinarily productive research 
enterprise for its ideas and discoveries.
    As our assessment progressed it became clear to us that increasing 
the benefits from the Federal investment in research depends far less 
on Federal promotion of the commercialization of research discoveries 
or on trying to predict the scientific fields that are most likely to 
lead to commercial products and services, than on Federal policies that 
promote the conditions for the research enterprise to thrive. We 
identified three crucial pillars of the research enterprise:

  1.  A talented and interconnected workforce. The importance of talent 
        cannot be overstated, both as input and as output. Talent 
        benefits not only from public investments in traditional 
        education and research training in science and engineering but 
        also from highly skilled immigrants; partnerships; supportive 
        research environments; and worldwide networks through which 
        researchers connect with others, develop professional 
        relationships and share ideas and scientific resources.

  2.  Adequate and dependable resources. Stable and predictable Federal 
        funding encourages talented students to pursue scientific 
        careers, keeps established researchers engaged over a career, 
        and attracts and retains foreign talent. It also supports a 
        diversity of institutions that both fund and conduct research, 
        as well as essential scientific infrastructure-the tools 
        necessary for conducting research. Flexibility and stability in 
        funding, along with a culture that tolerates failure, may 
        inspire researchers to pursue riskier and more innovative 
        research with a greater chance of failure but also a greater 
        likelihood of transformative impact. These resources are 
        increasingly important to future U.S. competitiveness, given 
        the rising investments in research by other countries, 
        particularly China and other Asian nations.

  3.  World-class basic research in all major areas of science. Basic 
        research, in which investigators pursue their ideas primarily 
        for increased understanding and not necessarily toward a 
        technological goal, often provides the foundation of discovery 
        and knowledge for future economically significant innovations. 
        Federal investments in basic research contribute to the growth 
        of a trained research workforce, support the scientific 
        infrastructure to conduct research, and enable U.S. researchers 
        and would-be innovators to exploit the world-wide networks of 
        researchers, who open access to a vast stock of knowledge and 
        technological approaches. Absent a strong pool of scientists 
        and engineers familiar with basic research at the cutting edge, 
        scientific research and its products are unlikely to be 
        developed and applied in ways that create value for society.

    World-class basic research in all major areas of science is 
important because truly transformative scientific discoveries 
increasingly depend on research in a variety of fields. Moreover, in 
today's highly connected world, a discovery made somewhere is soon 
known everywhere. The competitive advantage may go not to the Nation in 
which the discovery was made but to the Nation that can use it more 
effectively to develop new technologies and other innovations by 
relying on a broad foundation of knowledge, talent, and capacity 
derived from basic research in a diversity of scientific fields. 
Finally, a world-class basic research enterprise attracts scholars from 
around the world who further enhance excellence in research and create 
a self-reinforcing cycle.
    The development of Google is a good example of why a diversity of 
basic research is important. Google owes its remarkable success in part 
to its algorithm for ranking Web pages. The 1997 patent application for 
the algorithm, which acknowledged support from the National Science 
Foundation (NSF), drew heavily on multiple discoveries spanning nearly 
45 years of social and information sciences research--discoveries made 
possible by funding from four Federal science agencies and protected by 
a handful of seemingly unrelated patents awarded to a university 
(Carnegie Mellon), corporations (Lucent, Libertech, AT&T, Matsushita), 
and industrial laboratories (AT&T Bell Labs). Critical to the 
development of the algorithm was decades-old research on methods to 
determine social status, and social network research from the 1970s. 
The development of the Google algorithm illustrates the importance of 
seemingly unrelated social science research; the convergence of 
research at universities, corporations, and industrial laboratories; 
and the unpredictable benefits of federally-funded research. Moreover, 
the economic model for Google advertising utilizes a variant of the 
Vickrey auction, first described in a 1961 theoretical economics paper 
and later developed by many others with NSF support. Other Internet-
based companies have followed suit.
    New as well as existing measures could be used to assess each of 
the three pillars. Such measures might include, for example, indicators 
of human and knowledge capital, indicators of the flow of knowledge in 
specific fields of science, indicators with which to track the flow of 
foreign research talent, portfolio analyses of Federal research 
investments by field of science, international benchmarking of research 
performance, and measures of research reproducibility. Another recent 
National Research Council report, Capturing Change in Science, 
Technology, and Innovation: Improving Indicators to Inform Policy, 
identified many measures for assessing the performance of policies 
intended to strengthen the three pillars of the research system.
    The levels, composition, and efficiency of federally funded 
research need to be adjusted to meet today's circumstances and we need 
better metrics to inform policy decisions about research. But the 
United States lacks an institutionalized capability for systematically 
evaluating the Nation's research enterprise as a whole, assessing its 
performance, and developing policy options for federally funded 
research. An organization charged with such a responsibility would 
increase the demand for policy relevant data of high quality. Although 
NSF's National Center for Science and Engineering Statistics produces 
valuable data (e.g., Science and Engineering Indicators) that could be 
used in policy analysis, NSF's role differs from that of Federal policy 
analysis agencies or statistics agencies such as the Bureau of Economic 
Analysis or the Economic Research Service that conduct policy analysis.
    One U.S. data collection program--STAR METRICS (Science and 
Technology for America's Reinvestment: Measuring the Effect of Research 
on Innovation, Competitiveness and Science)--is designed to collect a 
number of measures of the impacts of federally funded research. This 
data program is a joint effort of multiple science agencies (the White 
House Office of Science and Technology Policy, NIH, NSF, the Department 
of Energy, and the Environmental Protection Agency) and research 
institutions. While STAR METRICS aims to document the outcomes and 
public benefits of national investments in science and engineering 
research for employment, knowledge generation, and health, our 
assessment is that it is not ready for prime time use.
    STAR METRICS could potentially be of great value in assessing the 
value of research if efforts were made to (1) broaden coverage by 
enrolling additional institutions, (2) deepen coverage by expanding the 
data elements reported, (3) link the data to other national and 
international datasets, (4) establish the quality of the data, and, 
most importantly, (5) ensure broad, easy access for researchers. Such 
expanded data and access need to be coupled with modern analytical 
tools, such as complex network modeling and analysis. Our report 
provides a simple illustrative example, but with better data, such 
tools might reveal important interactions among components of the 
research enterprise using an expanded and restructured STAR METRICS 
program.
    Enhancing America's research enterprise requires a better 
understanding not just of the three pillars of talent, resources, and 
basic research, but also of the relationships and interactions among 
them. For example, resources for basic research also provide for talent 
through the training of a research workforce and, by engaging 
undergraduate students in research, as we do at my university, Carnegie 
Mellon.
    Let me use my Department of Statistics as an illustration. My 
faculty colleagues and I have a diversity of research grants and 
contracts that employ and train our Ph.D. students. But this Federal 
and international research support also creates a research environment 
that allows us to engage and train many undergraduates and master's 
students, who go on to advance their research skills at other research 
universities in statistics and many quantitatively-related disciplines. 
And this pattern is replicated across the university, fostered in part 
by the interdisciplinary activities of my colleagues. These students 
represent the future of our scientific workforce.
    Other measures, which can help to make the research enterprise more 
efficient and which can provide information to guide the allocation of 
research funds arise in evaluations. We address in our report the 
evaluation of research funding programs, of peer review, and the 
effects of different funding programs, such as the NIH Pioneer Awards, 
on research performance. Unfortunately, most attempts at evaluation do 
not address the fundamental question: What would have happened but for 
the research funding program? At a higher level, evaluation efforts 
rarely address questions such as: what alternate allocation of 
resources between programs might promote a healthier research 
enterprise? If evaluations are conducted at all, they are often added 
after the fact. Evaluation needs to be built into research funding 
programs from the outset to help avoid the unmeasurable biases 
associated with ad hoc retrospective evaluation. Moreover, few 
evaluation studies or approaches adopt randomized controlled field 
experiments that control for biases and input differences. We need to 
address these evaluation challenges.
    Measures of research activities, outputs, and technology transfer 
are important, but we need to improve both the measures and the 
underlying data. Greater benefit will come from measures to guide the 
pillars of the research enterprise--talent, resources, and basic 
research. If we cultivate talent, provide adequate and dependable 
resources, and invest in a diversity of basic research, fresh 
discoveries will continue to power our economy and to enrich our lives 
in unpredictable and unimaginable ways.
                               Attachment
                Furthering America's Research Enterprise
  Committee on Assessing the Value of Research in Advancing National 
                                 Goals
     Richard F. Celeste, Ann Griswold, and Miron L. Straf, Editors
        Division of Behavioral and Social Sciences and Education

Copies of this report are available from the National Academies Press, 
500 Fifth Street, NW, Keck 360, Washington, DC 20001; (800) 624-6242 or 
(202) 334-3313.

A PDF of the report may be downloaded without cost from the Press 
website at http://www.nap.edu.

Suggested citation:
National Research Council (2014). Furthering America's Research 
Enterprise. R.F. Celeste, A. Griswold, and M.L. Straf, (Eds.), 
Committee on Assessing the Value of Research in Advancing National 
Goals, Division of Behavioral and Social Sciences and Education. 
Washington, DC: The National Academies Press.
                                 ______
                                 
  Committee on Assessing the Value of Research in Advancing National 
                                 Goals

The Honorable Richard F. Celeste (Chair), Colorado College (emeritus)

Rodney A. Brooks (NAE), Massachusetts Institute of Technology 
(emeritus)

Alicia Carriquiry, Department of Statistics, Iowa State University

Christopher M. Coburn, Partners Healthcare, Boston, Massachusetts

Stephen E. Fienberg (NAS), Department of Statistics, Heinz College, and 
Machine Learning Department, Carnegie Mellon University

Bronwyn H. Hall, Department of Economics, University of California, 
Berkeley, and University of Maastricht, the Netherlands

John E. Kelly, III, International Business Machines Corporation

Josh Lerner, Harvard Business School

David C. Mowery, Walter A. Haas School of Business, University of 
California, Berkeley

Jason Owen-Smith, Department of Sociology, Organizational Studies 
Program, Institute for Social Research, and Barger Leadership 
Institute, University of Michigan

The Honorable John Edward Porter (IOM), Hogan Lovells, Washington, D.C.

Stephanie S. Shipp, Virginia Bioinformatics Institute, Virginia Tech

Gregory Tassey, Economic Policy Research Center, University of 
Washington

Jeffrey Wadsworth (NAE), Battelle Memorial Institute

David Ward, University of Wisconsin--Madison (emeritus)

Miron L Straf, Study Director
Steven Ceulemans, Consultant
Ann Griswold, Science Writer
Viola Horek, Manager of Operations
Mary Ann Kasper, Senior Program Assistant
                                 ______
                                 
                                Contents
Summary
Chapter 1 Introduction
Chapter 2 Evolution of the U.S. Research Enterprise
Chapter 3 Understanding the Pathways from Research to Innovation
Chapter 4 The Usefulness and Limitations of Metrics in Measuring the 
        Returns on Publicly Funded Research
Chapter 5 Measuring Research Impacts and Quality
Chapter 6 Understanding the Research Enterprise as a Complex System
Chapter 7 Conclusion
References

APPENDICES
A. An Evaluation of STAR METRICS
B. U.S. Universities and Industrial Innovation: An Interactive 
        Relationship Producing Economic Value from Research
C. Annotated Bibliography of Selected Studies
D. The Study Process
Biographical Sketches of Committee Members and Staff

    The Chairman. Thank you very, very much.
    Lots of questions.
    Dr. Cerf, your career is a very good encapsulation of how 
government-funded, basic research can lead to technological 
innovation that has far reaching consequences for our economy 
and our world. Now you have spent part of your career at some 
of our leading universities, conducting research and training 
students. You spend part of your career as a government 
researcher at DARPA and you have worked in the private sector 
at companies like IBM, MCI, and Google that have been able to 
build successful business models based on your previous work.
    Can you explain why developing a breakthrough technology 
like the Internet is not possible without our network of public 
and private resources?
    Dr. Cerf. Thank you, Mr. Chairman, for that question. It's 
one of the most fascinating parts of my career which is 
alternating back and forth between the research environment and 
the private sector taking advantage of what's been learned 
thanks to research support.
    Let me suggest two things. First of all, in the case of 
ARPA, my work at UCLA and then Stanford University was 
supported by the defense department; the Advanced Research 
Projects Agency. And, although I would characterize the work as 
applied more than basic research, hiding underneath a lot of 
what we did was the need to have good understanding of 
mathematical models of the behavior of the systems that we were 
building.
    So, to give you an example, Dr. Leonard Kleinrock, at UCLA 
and formerly MIT, built mathematical models of the way in which 
computer networks would function and was able to make some 
predictions about how it would behave. And my job when I was at 
UCLA, doing the predecessor to the Internet, was to gather data 
from the way this network functioned and compare with his 
queuing models to see whether or not his predictions were 
accurate relative to what we could measure.
    And the thing that's so important about this, and I thank 
you so much for asking this question, is that there was in fact 
a feedback loop because the model sometimes didn't correctly 
predict what would happen and it would make us go back and 
figure out how to change the model in order to get better 
predictions.
    On the other hand, sometimes the model would predict that 
bad things would happen and we had to go back and figure: How 
do we stop that from happening in the actual implementation? So 
this wonderful yin and yang of research and modeling and 
analysis and actual implementation really reinforced this 
process. But it took some years to take advantage of all that. 
And I won't go on and on, on this point, but I can tell that 
almost in every case there's some fundamental theory that has 
to support the mechanical outcomes.
    I can't resist telling you one other anecdote. At Stanford 
University, Larry Page and Sergey Brin, as graduate students, 
had funding from NSF to do some research on the ability to 
manage large amounts of data and to try to figure out how to 
organize it. And in order to test their idea, they had to have 
enough computing equipment to do what they wanted to do which 
is literally download the entire worldwide web and index it.
    Now I'm fond of going around telling everyone that 
permission-less innovation is really important. You shouldn't 
have to get permission to invent something. Well, I hadn't 
understood that this phase applied to what Larry and Sergey 
did, because I understand now that since they didn't have 
access to all the computing equipment they needed, they 
borrowed some. And I now understand that they didn't always 
have permission to borrow it. And yet, we now see permission-
less innovation producing an extraordinary outcome; the success 
of Google.
    The short story, sir, is that no successful implementation, 
no successful engineering, no successful business ever gets 
anywhere if there isn't a fundamental foundation below it that 
makes it work. And that's why understanding how the world works 
is so important.
    The Chairman. Thank you and I turn to Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Dr. Fienberg is a statistician and member of the National 
Research Council's Committee on Assessing the Value in 
Advancing National Goals. You identified new and existing 
measures to assess basic research, workforce, talent and 
resource. According to your report, such measures might include 
portfolio analyses of Federal research investments by each 
field of science, indicators to track the flow of foreign 
research talent, and international benchmarking of research 
performance.
    The question is: how well, if at all, is the United States 
currently utilizing these measures and how could better 
assessment in these areas guide Federal policies regarding 
which research investments best expand the benefits of science?
    Dr. Fienberg. That's a complex question. Let me try to 
answer it in pieces. The place where we have metrics or 
measures at the moment, that seem to be doing pretty well, is 
in performance. We can count outputs. We count how many papers 
scientists publish; patents, publications and journals. So 
there we measure pretty well.
    Evaluation measures tell us how research programs compare 
in terms of ultimate outcomes that benefit society, and it was 
really here where we saw much room for improvements. We looked 
across the board, at both what the U.S. measures now including 
the kinds of data gathered by the agency within NSF but more 
broadly, and then we asked what other countries were doing and 
how they were trying to gage their own research enterprises. 
And we found an astonishing lack of tools for that kind of 
assessment, especially at the program level where you want to 
ask how a program as a whole is doing as opposed to how an 
individual scientist or a subset of projects do. And that's an 
area where we actually need to invest in new research if we're 
going to get those kinds of performance and evaluation measures 
in hand to help you and the policymakers in Congress actually 
be able to assess the kinds of tradeoffs.
    The three pillars that we identified, again talk about 
broad indicators, but even here there's much room for 
improvement. There is a program that was initiated by a number 
of Federal agencies called ``STAR Metrics.'' And it was 
designed to give a unique look at these kinds of issues. We 
studied STAR Metrics in our committee deliberations, and we 
gave some illustrations of how those metrics might be used. 
But, what we concluded was that it wasn't ready for primetime. 
The data were insufficient. They weren't linked to other data 
that you would want to link it to for outputs, and the data 
weren't necessarily of high quality, and they weren't 
accessible by researchers who could provide the feedback to 
government agencies to make it work.
    And so, I think that we have a long way to go to be able to 
really take stock of the real benefits and to be able to weigh 
decisions about different kinds of programs at a fairly high 
level.
    Senator Thune. Dr. Cerf, without a coordinated strategy the 
potential exists for multiple agencies with similar research 
funding to fund duplicative or overlapping research. What 
duplication have you witnessed or come across in your capacity 
at Google or as a member of the advisory boards for NSF and 
NIST, and can advisory bodies like those upon which you serve 
do more to review and oversee federally-funded research 
programs to ensure efficiency in the research enterprise?
    Dr. Cerf. So this is a really interesting question, 
Senator, because efficiency is not always manifest in the 
research enterprise. In fact, I must say, although I don't 
depend upon them, accidents are sometimes the most important 
sources of surprising and successful research.
    I think you will remember the discovery of penicillin was 
preceded by a question of mold showing up in some petri dishes. 
And, around that mold, it appeared that no bacteria were 
growing. And Fleming, to his credit, instead of discarding this 
and saying ``Well, there must be something wrong'' said, ``Hmm, 
that's funny.'' And it's the people who asked that question, 
that are the ones that end up with the Nobel prizes. So this is 
not to argue, however, that we can't be more deeply 
appreciative of how to fashion and how to decide research 
expenditures.
    One way to do this is to take advantage of the scientific 
community's awareness of what we don't know. And one of the 
things that is so valuable about the peer review process is 
exactly that. When people make proposals, it is often to 
express things that we don't know. And the other is to review 
those processes and help us understand whether it's worth 
pursuing.
    Nonetheless, I think I would like to aim my response partly 
at Dr. Fienberg's comments and ask a question about the way in 
which we evaluate research and its success. I've often wondered 
whether anyone has taken the time to look at a successful 
enterprise and ask the question: What led to that? You know, 
what is the tree of research results and maybe, you know, 
application results that have led us to this particular 
outcome? It's kind of like if you're an academic, you teach 
students and then some of them become academics and they teach 
students and then you have these academic grandchildren and 
great-grandchildren. I keep thinking that research results have 
a similar kind of character. Somebody gets a fundamental result 
and the question is: How did we take advantage of that 
knowledge?
    So imagine lasers and eventually ending up with optical 
communications and CDs and DVDs and so on. I don't know if 
anyone--let me ask you. Am I allowed to ask the other guys 
questions?
    [Laughter.]
    Dr. Cerf. Let me ask Dr. Fienberg.
    Does anyone try to lay out the ancestry of these successful 
results? And if they don't, maybe we should because it would 
give us some insight about how this actually works.
    Dr. Fienberg. People actually do that, but there's an 
interesting side question. That is, that's a case study and 
people do such case studies in universities today. The more 
interesting question is: What would have happened if we hadn't 
funded the research program and it hadn't produced these 
outcomes? Where would American society be? Where would American 
industry be? And that counterfactual question is a much harder 
one to ask and answer, and it's one for which we have very poor 
tools to assess the outcome.
    Senator Thune. Mr. Chairman, I think their questions of 
each other may be better than mine. I don't think they're 
really necessary to this hearing but I'm glad that the Senator 
from Massachusetts has arrived.
    Let me just ask, because you mentioned, Dr. Fienberg, and 
as the National Academy's report has identified, that the 
United States lacks an institutional capability for 
systematically evaluating the Nation's research enterprise, 
assessing its performance in developing some of these policy 
options for research. Isn't the White House Office of Science 
and Technology Policy well positioned to perform that role?
    Dr. Fienberg. That office could be in a position to perform 
that role, but at the moment, at least, it really doesn't fit 
the formal mandate and it's overburdened with other activities. 
And so, there needs to be an organization not unlike that with 
the mandate to gather the data to integrate across agencies and 
to look independently at that. That's clearly one place to 
place such a capability.
    Senator Thune. Do you think that shortcoming in any way 
creates an impediment to growth, to economic growth?
    Dr. Fienberg. I think it has to.
    If you want to know which of five programs or which of five 
different allocations across programs are going to yield the 
greatest benefit and you have no data and no insights, it's 
very hard to make policy choices on a rational, as opposed to a 
political, or other gut bases.
    Senator Thune. OK.
    One final question, Mr. Chairman, I used twice my allotted 
time but I wanted to ask the question on the R&D tax credit.
    Dr. Lane, you had mentioned, as I mentioned in my opening 
statement, you also highlighted, there are a lot of groups 
including the Business Roundtable that have suggested making 
that research credit permanent. How would that incentivize 
private businesses to unlock innovation and invest more in 
long-term R&D as well as promote jobs in manufacturing? Can you 
think of any specific examples of how our doing this in fits 
and starts and temporary extensions has inhibited companies 
long-term planning?
    Dr. Lane. Well, thank you, Ranking Member Thune.
    I think the purpose of that tax benefit was to encourage 
corporations to make some long-term investments in R&D because 
those really can constitute investments, and they're difficult 
to justify under certain circumstances. The idea of the R&E tax 
credit was to promote that because it was very important to the 
corporations to be able to look ahead further than they're 
currently able to do. The problem with making it temporary is 
that, or I hear from such corporations and Dr. Cerf can correct 
me if I'm wrong, is that when you don't know it's going to be 
their next year or the year after that, you're not going to 
make those kind of long-term commitments.
    And so, one thing that does, I believe, is get in the way 
of a richer, stronger partnership between the private sector 
and the research universities of the country, and probably the 
national labs as well. So one thing that our committee is 
focused on is finding mechanisms to strengthen this partnership 
between the sectors. And there are a number of issues that 
we'll talk about, but one of them we think would definitely 
help is making this tax credit permanent.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Would you forgive me if I asked one question?
    Very smart man.
    This is really to all of you. You've indicated about the 
importance of failure in broad Federal research. You say that 
``failure is the handmaiden of wisdom in the scientific 
world.''
    Now, that's a very hard concept for most people who are not 
scientists to understand in a political world much more 
difficult. Most people who work in government or private 
business want to be able to demonstrate that their investments 
have been successful. Now, what I would like you to do, each of 
you or any of you, is to give me an example, hopefully a real 
live example, of where you had to fail in order to succeed; 
number one.
    Ms. DiChristina, I'd be interested in your thought on this, 
too.
    Second, that it's sort of axiomatic, and Senator Thune has 
brought in another thing to this permanent tax credit, that you 
enable business to have more confidence into their future; 
therefore, they're more likely to invest. But underwriting I 
think your testimony is sort of an axiomatic matter that the 
private sector has to, at some point earlier than is convenient 
for the genius of failing in order to learn more, has to see 
results.
    There are some huge companies; pharmaceuticals spent years 
working on things, though that's not the same. So if you could 
help me understand through precise examples of where the 
private sector just had to get out of your joint partnership 
because they could not justify to their board of directors or 
to their shareholders continued non-success. It's a very 
important principle because the people who do research at a lot 
of these private sector businesses are trained highly like you 
are. And they are genuine scientists. And they're driven by the 
same desire to get a result and have to at least in their own 
thinking realize that sometimes we have to fail in order to 
drive us to figure out why we failed, therefore come to a high 
level of understanding. So help me understand that in the real 
world.
    Dr. Cerf. OK. Thank you very much, Mr. Chairman.
    Several examples. You will recall how many times Edison 
tried different ways at making a light bulb with different 
materials. And the point there is very clear that he had to 
fail a lot before he found something that worked. And what's 
important about this is failing fast as opposed to failing 
forever. And it's very important in the scientific enterprise 
and in business enterprise to learn quickly what works and what 
doesn't work. And so it's important to accept the idea that you 
want to learn from a failure. It's not that you want to fail 
but if you're going to fail you want to fail quickly and figure 
out why and try to be successful the next time.
    I'll give you another scientific example. Newton's model of 
the universe was very successful except there were certain 
anomalies that it didn't explain. And it was the failure to 
explain that led Einstein to come up with a very alternative 
model. And, of course without repeating the rest of history, 
the quantum theory guys demonstrated that some of Einstein's 
theories didn't work under certain conditions. And again, the 
failure of the theory has led to and forced development of 
better theories.
    And to give you another concrete, from my own personal 
experience, the first design of the Internet didn't work right. 
The second design didn't either. The third design didn't 
either. And the only way to find that out was to implement it 
and see what went wrong. It's not that we thought that we were 
doing it wrong we thought we were----
    The Chairman. It was as if it were the answer. You'd 
arrived at the answer.
    Dr. Cerf. I'm sorry?
    The Chairman. To implement it because in order to have it a 
failure you had to assume that it was going to work so that it 
could fail.
    Dr. Cerf. Yes, but we didn't deliberately set about 
designing something that we knew wasn't going to work. Yes, we 
weren't that stupid. But we were stupid enough to try out 
something we thought would work and it didn't. And what was 
important is that we discovered very quickly that something 
didn't work, we discovered why it didn't work. We reiterated 
four times. The version of the Internet you're using today went 
through four cycles of that and I've been through exactly that 
same scenario with an interplanetary extension of the Internet. 
We went through multiple cycles of trying to design until we 
found something that worked right.
    I think in the business world it's the same thing, except 
not all businesses either feel the freedom to allow people to 
try something ambitious that might not work. And at Google, I 
must tell you, the top of the company insists that we shoot for 
the moon, literally. We have an organization called Google X. 
It's the one that does the self-driving cars. It's the one that 
does Google Glass. It's the one that just invented a contact 
lens that measures the level of glucose in the tears of your 
eyes, calculates what the blood level of glucose would be and 
therefore would allow a diabetic--this is not operational yet--
not to have to prick his fingers four or five times a day to 
figure out what kind of insulin should be taken.
    These are moon shot things. And the company allows our 
engineers to try them out. Not every company, I think, feels 
the same level of willingness to do that. And so it's very 
possible that, for some other companies, this R&D credit that 
you were asking Dr. Lane about, might have an influence on 
their decisions. I'm lucky to work at a company that insists 
that we try things out even if we're not sure they're going to 
work.
    Dr. Lane. Mr. Chairman, could I add a comment; just a brief 
comment?
    The Chairman. Yes.
    Dr. Lane. In a way, research is mainly about failure. I 
mean, the research projects I know about, either my own 
institution or the ones we funded, the researcher fails again 
and again. And you try this. It doesn't work. You try this. It 
doesn't work. You learn from it to try something else that 
doesn't work. You don't publish all the failures but that's 
what occurring day-by-day.
    Dr. Cerf. And maybe we should.
    Dr. Lane. Maybe we should, but most of the time in the 
laboratory you're failing and learning and failing again and 
learning. That is the nature of research and that's a reason 
why whoever funds that research has got to have the patience to 
understand that process and be willing to live with it. 
Otherwise, we're not going to get it done.
    The Chairman. And the continuity of funding.
    Dr. Lane. Right.
    Dr. Fienberg. I----
    The Chairman. Please.
    Dr. Fienberg. If I would be allowed, I could give a very 
different personal answer. When I was a graduate student, my 
advisor and a group of others at the National Academies were 
trying to answer a very vexing question about whether an 
anesthetic called halothane caused people to die when they had 
operations on their kidneys. And a number of deaths had 
occurred and nobody could understand whether or not this 
anesthetic was the cause.
    We set about to develop new statistical models to address 
that problem. The data were manifold; people could not fit the 
data into the computers at the time. So everybody had to invent 
work-arounds and people proposed the theories, statistical 
theory for doing that that was now quite correct. After that 
report was published, I worked on that problem for 4 years and 
I published three papers and still didn't get the theory 
correct.
    A decade later, with funding from ONR, from DOD, I worked 
on it again with the collaborators and we got really close. We 
had a manuscript of 200 pages, except there was a hole in the 
theorem and we never published it. And two decades went by 
again and, with NSF funding, one of my Ph.D. students took new 
mathematical tools, proved the theorem and those ideas turned 
out to be exactly what my friend and former colleague who was 
running Google Pittsburgh was using in his research on 
advertising for Google. And that was a 40-year legacy of 
efforts and, ultimately, we just published the results 3 years 
ago.
    The Chairman. Thank you, sir.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much and 
thank you for having this extremely important hearing.
    Research and development science is critical to our 
economic growth, critical to keeping our lead in the world. 
We're looking over our shoulder at number two, three and four. 
We are winning Nobel Prizes this year because of an investment 
30 or 40 years ago in young scientist, young technologists. 
Whether or not we are going to be successful 30 and 40 years 
from now and winning Nobel Prizes against China and India is 
going to be determined by the vision that this generation has. 
The last generation had one. Will this one? And will it 
ultimately be at the same level of results of fruit that the 
last generation is able to enjoy looking at the 
disproportionate number of Nobel Prizes in science that we win 
today?
    So, Dr. Cerf, I just want to go back in time if I can. 
We've known each other for a long, long time. If you could take 
us back in time: It's 1966 and the Federal Government goes to 
AT&T and says ``We'd like you to design a packet-switched 
network.''
    And AT&T says, ``No, no, no. No, thank you. We already have 
a monopoly. We have the long lines going across America, we 
don't have time.''
    Then they went to IBM and said, ``We'd like you to develop 
a packet-switched network.''
    And they say, ``No, we don't want to do that.''
    And so, they go to a little company, Bolt, Beranek and 
Newman, up in Cambridge and they get the contract to design 
this packet-switched network. And then you and Bob Kahn and a 
whole bunch of other people, you know, playing off this Federal 
funding that's coming in. You kind of invent something here 
that's new and cool and it's not just applicable to defense but 
for the private sector as well.
    Talk about a little bit of the role that the Federal 
Government played in having the vision not to invent it but to 
invest in the people and the science and the research that 
could invent it.
    Dr. Cerf. But, you know, in all fairness, the then Director 
of the Information Processing Techniques Office, Licklider, was 
in fact one of the creators of the concept. You will recall a 
very famous note that he sent around in 1965 to his colleagues 
to talk to them about his idea for an intergalactic network. 
And of course, he was just tongue and cheek, but he had the 
belief that computers could be used for more than just 
computation, that they could be used for dealing with non-
numeric problems and could be used in command and control. And 
that was what drove the early ARPA initiative in the use of 
computing.
    Second thing is that, in the run-up to the ARPANET, Larry 
Roberts was brought down from Lincoln Laboratory to ARPA. ARPA 
had been funding something like a dozen universities to do 
research in computer science and artificial intelligence. And 
every year each of those universities asked ARPA for the latest 
computing equipment because, after all, you can't do world-
class computing without a world-class computer. And even ARPA 
couldn't afford every year to buy another world-class computer 
for every one of these research institutions. And so, Larry 
Roberts said, ``We're going to build a network and you're going 
to share.'' Everybody hated the idea and he said ``We're 
building the network anyway.''
    So that first network, the ARPANET, was a resource sharing 
network and it was driven by the government guys.
    Senator Markey. Yes.
    Dr. Cerf. So the bottom-line on all this is that ARPA and 
the Department of Energy and NASA and the National Science 
Foundation, together, have funded network research for almost 
40 years.
    Senator Markey. So the bottom-line is no Federal 
Government, no funding----
    Dr. Cerf. None of this would have happened.
    Senator Markey. No Bolt, Beranek and Newman. No invention 
of ARPANET. No Google. No Hulu. No YouTube.
    Dr. Cerf. No Yahoo!. No nothing.
    Senator Markey. So just to say the words. I just want to 
say the words; okay?
    And even today, what new things are coming to Google as 
possibilities because of that investment? Because of what is 
being done by the Federal Government?
    Dr. Cerf. So I think that the two most important things 
that I see at Google right now, apart from the really crazy 
stuff like the autonomous vehicles and the balloons that are 
floating at 60,000 feet delivering Wi-Fi services and the lens 
that I just mentioned earlier, those are our kind of moon-shot 
programs. But Google is all about organizing information. 
That's what our motto says: ``Organize the world's information 
and make it accessible and useful.'' The idea that people want 
to share what they know with everyone else is the avalanche 
that happened when the World Wide Web struck in 1993. And 
Google is taking advantage of that ability to find and share 
information, help people discover information.
    The second thing that's going on is the Internet of things 
is upon us, and Google just made an investment in a company 
called NEST; its early foray into that. The idea of having 
ordinary equipment being able to communicate with each other, 
with us and to aggregate that information to create Smart Homes 
and Smart Offices, Smart Cars and Smart Cities, and maybe 
someday Smart Continents. That's what I see the future is about 
because it's about getting the information and being able to do 
something useful with it.
    Mr. Fienberg is going to be important to that, and his 
colleagues and his students, because analyzing this 
statistically will turn out to produce some very, very deep 
insights that you couldn't get if you couldn't manage all that 
information.
    Senator Markey. I'm presiding over the Senate in 14 minutes 
so I have to run out, but I would just like to say that I said 
BBN, Bolt, Beranek and Newman, got the contract to do it and 
then everything flowed out of that but Leo Beranek, who is the 
owner, he eventually was the head of Channel 5, the ABC 
affiliate up in Boston. He was the Chairman of that Board.
    So in the late 1970s he would sit there with me and he 
would just explain how these lines on a TV screen are just 
information and how eventually it was just going to be all 
digital and the screen would actually have data as well as a 
picture and a voice and how it was all going to evolve very 
rapidly, this guy who got the contract from ARPANET to build, 
you know. And so, he would explain it to me in the late 1970s, 
I would try to explain it to other people who, I was a Member 
of Congress, but the Committee up in the House wasn't yet ready 
for this level of, you know, it was still a far off event. But 
he always kept coming back to first you had to break up AT&T 
who didn't want the contract in 1965.
    He would keep coming back to the central point that, 
unfortunately, there were many Nobel Prizes being won but it 
was off of basic research, none of it for applied; OK? If you 
got to get it out of the laboratories, get it out there and 
then the young people will take over.
    And I will just say one final thing, because I do have to 
run. And that's to you, Dr. Lane. One of the most incredible 
moments that you have as a boy whose father is a milk man is 
you're a Cub Scout and Mrs. Carrie used to put the ten of us in 
a little van, you know, and take us around to see interesting 
things that we otherwise see from our neighborhood. And when we 
were ten, we went to the Museum of Science in Cambridge, you 
know? And the National Academy of Arts and Science is up there 
in Cambridge.
    And thank you so much for all of your leadership, Dr. Lane. 
We really appreciate it.
    But, as we were taken through that Museum of Science, it 
was eye-opening to us; huh? And we were the Catholic boys, you 
know, from Malden. It turns out is that it wasn't just the 
Catholic boys, but the Protestant, the Jewish, the Hindu, the 
Muslim, the Jain; everyone was put on a bus and taken there 
when they were 10 years old, 11 years old because, regardless 
of the religion, science was in answer to our prayers. It could 
solve problems.
    And so, scientific education is just so important and it's 
just something that we have to continue to invest in and 
revere. And I just want to thank you, Dr. Fienberg, Dr. Lane, 
Ms. DiChristina and you, Vint. Thank you all so much for all of 
your great work. Thanks.
    The Chairman. Now you're not signing off are you?
    Senator Markey. I'm presiding. I have to run.
    The Chairman. Well just let the Senate idle.
    [Laughter.]
    The Chairman. You're more important here. You're just going 
to sit there presiding over people who aren't talking.
    [Laughter.]
    Senator Markey. Thank you.
    The Chairman. OK. Thank you, Senator Markey.
    We have the Commerce Committee and remember, again, going 
back to Chuck Vest. He would come down and there would be about 
four or five of us sitting around and he would just go into a 
hardcore get-with-it on science. I mean this; I'm talking 10, 
12, 15 years ago, 20 years ago. And he'd just do it and he 
would do it because he was determined to try and make the 
Commerce Committee more receptive to the things that he knew 
were important. And what's happened now, interesting, is that 
we have like Ed Markey and Richard Blumenthal and others that 
are extraordinarily adept, good thinkers on the Commerce 
Committee. But we're caught in a time when the Congress doesn't 
want to do anything. So it makes it kind of difficult.
    Now I want to ask a question to you, Dr. Cerf, and then I 
want ask a question to you, Ms. DiChristina.
    Dr. Cerf, a few years ago you testified before this 
committee about the importance of the standards, TCP/IP, 
standards that you helped develop for the Internet. They're 
open. They're public standards that are available to anybody. 
Nobody has to ask permission to pay a royalty to use these 
standards. For example, Google didn't have to get permission 
for an Internet gatekeeper before it launched its search engine 
back in 1998 because it was all there. So these open standards 
have been one of the secrets to the success of the Internet; I 
would judge you agree. Isn't it true that because the United 
States led the effort to develop the Internet, we were able to 
prevail in the debate over open versus closed standards?
    And second, I know you think a lot about this issue and I 
appreciate your roles in outside advisory to NIST. If the U.S. 
loses its role as a technology leader, won't we also lose our 
leadership role in developing standards that encourage openness 
and economic growth?
    Dr. Cerf. Thank you very much, Mr. Chairman. Those are both 
really important questions.
    First observation I would make about standards is that they 
are a substitute for an endless amount of negotiation. When you 
agree on a standard, especially if it's a global and 
international one, and everyone chooses to adopt the standard, 
what it means, in my case and in the case of TCP/IP, is that 
two completely independent parties who never, ever met, never 
had a discussion or a debate, if they build their equipment to 
meet those standards, they will interoperate. That's why when 
you plug your computer into the Internet you can talk to 3 
billion other devices anywhere on the Internet because they all 
observe, voluntarily, the same set of standards.
    So it's a tremendous platform for innovation and creation 
and competition. Some people will tell you, ``Oh, standards 
stifle innovation.'' Wrong. Standards create an environment in 
which lots of competition and lots of innovation are possible 
when you build on top of those standards. So that's the first 
point.
    I'm sorry, but I forgot what the second question was. Help?
    The Chairman. It has to do with your working with NIST.
    Dr. Cerf. Oh, with NIST. OK.
    So the question there is what happens if we don't adopt and 
use these standards. NIST is one of the key players in 
standards-making for the Federal Government, and one thing 
that's very clear is that industry benefits enormously from 
having those standards around for exactly the same reason. And 
if we lose the leadership in the creation of those standards, 
then we will lose some of the momentum that the U.S. has been 
able to use to propel our industry. This doesn't mean, by the 
way, that we can't adopt and use other people's standards 
because we use international standards from other organizations 
like the International Standards Organization or the 
International Telecommunication Union. We participate in the 
creation of those standards but it's the ability to adopt and 
use them quickly and effectively that's the most important 
thing. NIST has helped with that and especially for the 
Government enterprise and for the private sector.
    The Chairman. You know it's interesting because NIST has 
become, wrongly, very controversial in the whole question of 
trying to pass the cybersecurity bill. Olympia Snowe, since 
departed unfortunately, not from life but from this Senate, and 
I put out a cybersecurity bill 4 years ago, which seems like 30 
years ago to me. And what was key to that was that NIST was 
deemed to be that organization which could bring private 
industry and the public sector together to figure out what were 
the basic standards that had to be met in order for somebody 
to, let's say, get liability protection as they try to protect 
themselves against hacking. And it became very controversial 
because part of the Senate said, ``No, we don't want to have 
NIST making judgments. We can't have the government making 
judgment about what level of standards.''
    But on the other hand, if you don't have a level of 
standards in cybersecurity then, since it's all voluntary 
anyway, you end up with nothing.
    Dr. Cerf. Is there a question in there?
    The Chairman. No.
    [Laughter.]
    Dr. Cerf. First of all, NIST is one of the few bodies in 
the Government which regularly interacts with, has convening 
power for bringing the private sector and Government agencies 
together. And I think, as the former Chairman of the visiting 
committee on advanced technology, that NIST does this extremely 
well.
    I think your point should be very well taken. That if we 
have no standards for security or safety, then how does anyone 
even judge how well these systems are protected. The problem is 
very hard. Protecting against attacks in the cyberspace is very 
difficult for the very simple reason that software has bugs. 
And I'm embarrassed to tell you that, as a former programmer 
and as a current user, we don't know how to write software that 
has no bugs. But we could certainly do better than we do now. 
And that's why we need at least standards that could be 
voluntarily adopted.
    So I hope that you will continue in your effort.
    The Chairman. Oh, I will.
    I mean I just think, without sort of a common accepted 
standard that protecting yourself against cybersecurity doesn't 
have any meaning. And particularly in a body like the Congress 
where liability protection becomes such an enormous--we had to 
go through this on FISA. We had to give Verizon and AT&T 
protection on FISA because we were using their servers all over 
the world and they were getting massive, you know, claims made 
against them; suits brought in front of them because they were 
so doing. But they were so doing at our direction, the 
government's direction. So everything rolls around liability 
protection.
    Dr. Cerf. One of the biggest problems, I think, anyone 
would have including NIST is figuring out how to measure how 
secure or how well secured something is. And I think this is 
still the subject of considerable amount of research. And the 
reason for this, quite frankly, is it's made out of software, 
and software is really tricky complicated stuff. But that 
shouldn't stop us from at least trying hard to figure out ways 
to evaluate the security and safety of software.
    And I think, Professor Fienberg, this might be yet another 
problem to land in the lap of the statisticians among others.
    The Chairman. Thank you.
    Now, Dr. DiChristina, I just came from what is almost my 
favorite meeting of the year, which is the National Youth 
Science Camp which is located actually in West Virginia, eight 
miles from my farm. And within the protection of the radio 
astronomy collection of operations out there which you can't 
even run a car through that eight mile radius; that 10 mile 
radius. I mean it's so protected.
    So it's a wonderful experience for them. They come from all 
over the country and they spend 2 weeks there. And they get 
pounded on STEM. Now I just came from, you know, 100 of these 
folks, all young. Almost all of whom have decided what they 
were going to do in life. The two from West Virginia: one had 
decided they wanted to be a molecular biologist and announced 
that to me; and the other said that she was going to be a 
surgeon. Well, they're still in school; OK? And there's a lot 
that happens between what you want to do and then what you get 
to do.
    So Dr. DiChristina, if we accept as a matter of public 
policy that STEM, which now, you know, has good bipartisan 
momentum and a lot of money, in the training of teachers, in 
the picking out of course, and in the influencing of students 
to stick to the training of STEM before they decide what they 
want to do--and I'm making the judgment, perhaps wrong, that 
when young people, somebody 17 years old, says ``I want to be a 
molecular biologist.''
    I say, ``You don't have any idea what you want to be yet. 
Get out in the world. Get outside of your comfort zone. Go join 
the Peace Corps.'' You know? ``Go to some other country. Join 
VISTA. Do something, anything, to take you out of your pattern 
of self-perceived progression in life.''
    You've got the magazine. How do we encourage young people 
to stay loyal to STEM, frankly, not just for their own purposes 
but, frankly, for us being able to develop and keep the funding 
that's necessary?
    Ms. DiChristina. Thank you, Mr. Chairman.
    The Chairman. I'm asking you to be A propagandist, which is 
not fair.
    [Laughter.]
    Ms. DiChristina. Fortunately for me, it turns out to be a 
suitable role, I think. You've asked me a lovely question. 
Thanks very much.
    And one that has both a simple and complicated answer to 
it. It lets me to circle back a bit to the conversation we were 
having earlier too; about failure and getting through a failure 
and succeeding, which is part of it as well. In fact, one thing 
I sometimes--when I'm in a kidding mood and people ask me, you 
know, ``How did you get to be what you're doing?''
    I tell them that I am, in many ways, a failed scientist. So 
when you think about, you know, if you'd asked me when I was 
younger, I was definitely going to be a scientist. I took all 
the classes in eighth grade. I was an ``Alchemist,'' which was 
an after-school club, just so I could hang around and clean the 
test tubes and be longer around science.
    And, I think, for many people and many young people 
especially, as Vint mentioned just a little while ago, you 
know, we've been called ``born scientists.'' In fact, there's 
quite a body of research around that. Alison Gopnik and others 
have written about how it's innate to humanity to be curious, 
to ask questions, and you don't have to believe me. You can 
look at any young child in a highchair, dropping things off the 
side that weigh different amounts to see how they'll fall. That 
is a baby scientist.
    But the problem for many of us is that, as we get older, 
we're not able to keep touch. And you already, Mr. Chairman, 
pointed that out. How can we keep them down the track so their 
minds are open and they're looking at things? And we thought a 
lot about that at Scientific American, of course, which is why 
we try to keep the doors open to inviting them in. And it's 
something that I recommend, indeed, to anybody who is trying to 
engage children. It's not just when they are very young, which 
is, in some cases, we do a pretty good job at. And Scientific 
American has a series of activities called ``Bring Science 
Home,'' just to let parents and kids play with science.
    But for many of us, as we get older, science becomes a 
place we haven't been. Maybe fewer than 20 percent of the 
American public has even ever met a scientist. In this I feel 
very wealthy because I've met many. But for many people, 
science is--well, let me put it this way. If you go to a new 
country, aren't you always more interested in that country 
after you've been there?
    And science is a new country for many people. So the way to 
keep them engaged is to give them contact points. We've talked 
about a few of them. We talked about the Maker Movement. We've 
talked about citizen science and creating those open doors. 
These work all the way through the chain from when we're very 
young to when we're in middle school which, frankly, we lose a 
lot of people; in middle school which is why Scientific 
American has a matching service that gets scientists from every 
state in the union as volunteers into classrooms. It's on our 
website and it's for free. And then right up on through to when 
they're members of the American public and they can appreciate, 
by contacting science directly themselves, how it can help both 
inspire them and move the economy and our well-being through 
the future.
    So how we do that? We keep the doors open. We keep them 
open in all the ways we can and it's, as usual, a wide set of 
arrays which gives us a lot of options because that gives us 
choices. You might like to do it online; I might like to go to 
a dig.
    At the U.S.A. Science and Engineering Festival held here, 
in Washington, D.C. in April, 200,000 young people and families 
came through just to be close to science. At our booth, we let 
them actually handle media from fossil eras from 5 million 
years old. And we had discoveries that will be published right 
out of that booth made by children. That's the way to keep in 
contact with science; is do it directly.
    Thanks very much.
    The Chairman. No, thank you.
    Let me just close with, you know, America is in some 
distress just now and we're going through problems of 
immigration and can we govern ourselves and why is it that 
we're sort of setting about to destroy the instruments of 
government, such as NIST and other things, through non-funding. 
It's interesting. Sometimes you have discussions now, and we do 
aviation on this committee. And the FAA really hasn't had any 
boost in funding for years, but they don't complain because 
they're not getting cut as much. But, if they have the same as 
they had the previous year, they've been cut. People just come 
to sort of accept that and that's a very bad point-of-view.
    So let me ask you about the younger generation. I just did, 
intuitively--I mean, I was on cloud nine talking to that group. 
They were so bright. They were so good. They are from all over 
the world, but they represented, you know, two from each state. 
Then every time I've been there, which has been 8 or 9 years 
because West Virginia kind of does that, they're always the 
same.
    So my question to you is: has there been, in this buffeting 
of the economics of progressing in life and surviving in life 
and paying off college this and graduate school that, has there 
been in your judgment a diminution in the number of young 
people and their interest in science and, more importantly, 
their commitment to actually do something about that interest?
    Ms. DiChristina. Thank you, again, for another lovely 
question.
    So here I think this is a very important one, and I think 
that we are, of course, at risk if we don't choose the right 
policies to enable the students to keep that exploration that 
we were just talking about. But they do come in with that 
enthusiasm. They do start with it. At least some data evidence 
is helpful in this instance. We can see how they're reacting 
thanks to digital platforms, such as the ones that Vint, here, 
and others have been speaking about.
    Google has something called a ``Google Science Fair,'' 
which is a global competition. And every year it's got 
thousands and thousands of more students applying for it. 
What's different from that competition compared with the 
activity that you talked about which is one in person, which is 
wonderful and there should never be a substitute for being in-
person with people. But thanks to the digital platforms that 
have been developed, thanks to Federal research over time, and 
vast collaborative networks, we can now enable students to 
participate in science and research at a greater level through 
those networks as well. It's another way for us to invite them 
in.
    And through the Google Science Fair, these students can be 
anywhere around the world participating. In fact, Scientific 
American gives a special award called ``Science and Action'' 
which was first won by a pair of students in Swaziland who came 
up with a better way to feed their community.
    So the digital platforms give us yet another way. There are 
lots of other ways we could talk about, but I think that we 
have to keep an eye on those filters; we have to keep them open 
so that we're not discouraging the students from continuing on.
    Thank you.
    The Chairman. I was really disheartened yesterday to read 
in The Washington Post, and that doesn't make it correct, that 
applications for the Peace Corps are down for the first time. 
And I'm trying my best not to make that into some kind of a 
broader pattern but just a temporary something or other.
    Yes, sir.
    Dr. Cerf. May I?
    One thing that occurs to me, Senator Rockefeller, is that I 
wonder whether the drumbeat of reports of turmoil around the 
world----
    The Chairman. Would have----
    Dr. Cerf.--are causing some students to decide maybe it 
isn't safe to go and serve in that way.
    But if I could pick up something that Ms. DiChristina 
mentioned, there has been something that's happened in the last 
four or 5 years that I believe is really going to be 
transformational for young people's interest in science and 
engineering. And the answer is these 3D printers, and it sounds 
like a trivial statement but let me tell you that when you can 
end up with a concrete thing that you did as opposed to a kind 
of ephemeral piece of software that got written in a program 
that ran, the concreteness of what comes out of the 3D printing 
program is something that solidifies people's interest in 
science and engineering. I made this, and I think that we are 
going to see a renaissance of excitement in science and 
technology as a result of that invention.
    The Chairman. Yes, sir.
    Dr. Lane. Senator, may I add a comment? This is another 
area where immigration is so important----
    The Chairman. Yes.
    Dr. Lane.--to our country.
    In addition to the point you made about the contribution 
that had been made by generations of people coming here from 
all over the world for their education and starting companies 
and becoming a part of our society; their children go to our 
schools; they bring values from countries that, for whatever 
reasons, tend to consider science, engineering, and technology 
a higher priority somehow than America has been doing in recent 
decades.
    Peer example is very important to young people and I 
think--I have grandchildren in schools with second-generation 
kids from all over the world. Kids who assume that it's very 
important for them to understand STEM subjects and the careers 
in STEM really are exciting careers to think about. This rubs 
off. I think it influences other young people and reinforces 
those who are already interested in science. But also, I think, 
it shows to a larger number of young people how important 
science, engineering, technology and mathematics really is.
    So I think it's another side of immigration that this 
country has profited from over the years.
    The Chairman. And also, maybe, just a touch of disgust on 
the part of younger people; of how my generation and younger-
than-me generations have not done things adequately for their 
futures and, hence, the move toward more people becoming 
independents as opposed to Republicans or Democrats. In other 
words, that could be the surging of young people who, by 
definition, I think are always sort of created to be energetic 
and idealistic unless they're suppressed somehow. That may be 
what you're saying is absolutely right. And let's just assume 
that it is and we'll use that high note to end what has been an 
excellent hearing.
    I apologize for being greedy and keeping you here but I've 
been looking forward to this for a long time to get such top 
people, virtually, alone and----
    [Laughter.]
    The Chairman.--be able to get answers. And there's a young 
woman named Ann Zulkolsky behind me who is even happier than I 
am about all of this.
    So thank you for your time. I have absolutely no idea what 
time it is.
    [Laughter.]
    The Chairman. Or planes that you have to catch, but I don't 
care. You were here.
    Hearing is adjourned.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                            
                            A P P E N D I X

                             Emerging Technology Consortium
                                                     Washington, DC

Hon. Jay Rockefeller,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. John Thune,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune:

    The Emerging Technology Consortium--a Non-Profit Economic 
Development Corporation--submits the attached article from The Wall 
Street Journal for inclusion in the record for the Commerce Committee's 
hearing on The Federal Research Portfolio: Capitalizing on the 
Investments in R&D held on July 17, 2014.
    The Emerging Technology Consortium (ETC) is a non-profit 
organization dedicated to using technology and innovation to create 
opportunities in all communities--businesses with good paying jobs. The 
21st Century global economy is open to companies that produce the right 
product and/or service. In America today, this can happen if 
Government, at all levels, leads public private partnerships that 
create globally competitive businesses. America competes globally when 
next generation industries are located in all communities. Leadership 
must understand that there is no short cut to creating good paying 
jobs; it starts with diversifying and the commercialization of research 
that creates next generation industries. Those new companies will be 
the educational catalyst because people can see good paying jobs in 
their communities. Diversifying participating in innovation ensures 
America's competitiveness in the 21st Century global economy.
    America's competitiveness is predicated on all American's 
regardless of age, gender, race, national origin or religion, 
participating in research and commercialization activities. Noted 
scholars and university administrator are calling for a re-examine the 
grant review process as part of recalibrating our research policies.
    Thank you for your consideration of this request.
                                             Darold Hamlin,
                                  President and Executive Director,
                                        Emerging Technology Consortium.

Attachment: Article Wall Street Journal, March 4, 2014 OPINION, ``How 
to Reverse the Graying of Scientific Research'' by Ronald J. Daniels 
and Paul Rothman
                               Attachment
    Source:
    http://www.wsj.com/news/articles/
SB10001424052702304026804579411293375850348

OPINION

           How to Reverse the Graying of Scientific Research

Dramatically fewer grants are going to young scientists. That's a cause 
        for alarm.

   By Ronald J. Daniels and Paul Rothman--March 4, 2014 7:08 p.m. ET

    Youth will be served, as the saying goes, but increasingly that's 
not the case in scientific research. The National Institutes of Health 
reports that between 1980 and 2012, the share of all research funding 
going to scientists under age 35 declined to 1.3 percent, from 5.6 
percent. During the same period, the number of NIH awards going to 
scientists age 35 and under declined more than 40 percent, even as the 
total number of awards more than doubled.
    The numbers are similarly unsettling for the NIH's premier research 
grant, called the R01, a highly competitive, peer-reviewed grant that 
supports independent, investigator-driven science. From 1983 to 2010, 
the percentage of R01 investigators under age 36 declined to 3 percent 
from 18 percent. Principal investigators who were age 65 or older 
received more than twice as many R01 grants in 2010 as those 36 and 
under--a reversal from 15 years earlier. The average age at which 
investigators with a medical degree received their first R01 grant rose 
to 45 in 2011, from 38 in 1980.
    Considering that many of the most significant scientific 
breakthroughs were made by the 36-and-younger set--from Albert Einstein 
developing his special theory of relativity at 26 to James Watson at 25 
and Francis Crick at 36 discovering the DNA double helix--we deprive 
young scientists of funding at our peril.
    The reason fewer young scientists are receiving R01 grants from the 
NIH is not, as some observers surmise, because the researchers are 
securing alternative grants tailored to young investigators.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So what explains the tilt away from them? There are the long years 
spent in doctoral and postdoctoral programs or the technical 
requirements of the grant application. Or there is the length of the 
review process itself, as a closed system that disfavors the daring 
idea or the lesser-known applicant. This tendency is only more 
pronounced in an age of strained Federal research funding: With a 
smaller pot of money to dispense, there is even less incentive to 
support the risky proposal or the new scientist.
    Our most promising young minds find it more difficult than ever to 
ignite their own research. More young scientists are leaving 
laboratories for careers in industry. Some 18 percent of young 
scientists are considering leaving the country for positions abroad, 
where research funding is on the rise, according to a 2013 study by the 
American Society for Biochemistry and Molecular Biology.
    The NIH has not sat idly by. The agency has launched special award 
programs for investigators within several years of earning an M.D. or 
Ph.D. It also has created a ``new innovator award'' for investigators 
with unusually creative research ideas, and designed special rules to 
direct more R01 funding to early career investigators. But none of the 
initiatives in place has succeeded in reversing the trend toward 
reduced funding for young scientists.
    Many young scientists are not ready to lead a lab, and experienced 
investigators advance innovative research on a daily basis. And at 
least one recent study suggests that as the realm of knowledge has 
expanded, the age at which researchers can produce innovative science 
is inching ever upward.
    Nevertheless, history has shown that it is often the youngest 
scientists who defy orthodoxy and shatter paradigms. We must 
recalibrate our research policies to fuel the promise of the most 
talented individuals of all ages, with solutions on three fronts: re-
investment, re-examination and re-imagination.
    First, we must restore the national commitment to funding 
scientific research. Over the past 10 years, the NIH has absorbed cuts 
in purchasing power in excess of 20 percent, and this overriding trend 
is the greatest threat to nascent scientists. As these funds are 
restored to the agency, a substantial portion should be invested in 
awards tailored to young scientists.
    Second, we must re-examine the grant review process. The U.S. was 
the birthplace of peer review for research grants, and others adopted 
it to remarkable effect globally. This country should now lead in 
diversifying the pool of reviewers and, by this and other mechanisms, 
reduce the advantage of experience.
    Third, and more ambitiously, we should re-imagine the NIH grant to 
alleviate the pressures that currently steer R01 funding away from 
young scientists. We could increase the availability of grants 
designated for young investigators, create a funding stream for smaller 
demonstration projects that allow new scientists to obtain preliminary 
data for an ensuing application, or fund a capstone award for 
experienced scientists to complete their lines of study and preserve 
the legacy of their work.
    Other countries, including South Korea, Sweden and Israel, are 
pulling ahead of the U.S. in research and development investment as a 
percentage of GDP. These same countries are surpassing us in particular 
in their commitment to the next generation of scientists. China 
recently issued a strategic plan to build its science and technology 
workforce by cultivating 3,000 of the most talented young scientists 
over the next 10 years.
    We will put our Nation at risk if we fail to make a comparable 
commitment. If we miss out on investing in the next generation of 
scientists, we will miss out on their discoveries as well--and the 
benefits we all reap in improved drugs, technologies and jobs.

Mr. Daniels is President of Johns Hopkins University. Mr. Rothman is 
CEO of Johns Hopkins Medicine and dean of Johns Hopkins School of 
Medicine.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                           Dr. Vinton G. Cerf
    Question 1. Investment in computer science education is essential 
if we want to maintain and grow the STEM workforce in the United 
States. That's why I introduced the Innovate America Act with Senator 
Hoeven, which would expand STEM education opportunities to kids across 
the country by increasing the number of STEM secondary schools in the 
United States and boosting computer science investments. Do you believe 
that increasing the number of STEM schools would increase the retention 
of students pursuing a college degree in the STEM fields?
    Answer. It is not clear to me that increasing the number of STEM 
schools would be as effective as ensuring STEM teachers at existing 
schools have the qualifications and resources they need. The most 
effective path forward is to ensure we have teachers with serious 
college credentials in the sciences and other STEM disciplines who can 
convey the excitement and substance of science and technology. That 
means increasing incentives for teachers, providing for suitable 
facilities for teaching--including laboratory equipment--and investing 
in Internet-based resources--such as Massive, Online, Open Courses 
(MOOCs)--that could be integrated into the school curriculum. MOOCs 
have the potential to allow students to learn at their own pace, 
reviewing lecture material as needed. They enable classrooms to become 
places where problems are solved, techniques are discovered, and 
collaborative science is conducted.

    Question 2. Do you believe we have a sufficient amount of computer 
science education in our elementary and high schools? What can be done 
to improve computer science education?
    Answer. No, I do not. I think we should make exposure to 
programming a required course, or at least a course that can satisfy 
science curriculum requirements. There are two reasons for this view:

  (1)  Learning to program teaches a certain kind of analytical 
        discipline, by building valuable skills such as dividing 
        problems up into solvable components, understanding how to 
        integrate the ensemble of software into a solution, and finding 
        and fixing errors (bugs), among others.

  (2)  We are currently surrounded by software, and it will only be 
        more so as the ``Internet of Things'' continues to expand. 
        Smart cars, homes, cities, and nations will become a common 
        part of our socio-economic landscape. It is important to 
        prepare students to understand the power and the potential of 
        computer-based systems while also providing them with a clear 
        appreciation for the hazards they may pose. That includes 
        understanding the opportunities and risks of online 
        environments.

    The Association for Computing Machinery (www.acm.org/education) and 
the Computer Science Teachers of America (http://blog.acm.org/archives/
csta/2014/08/) are strong advocates of increasing the visibility and 
validity of computer science as a standard part of the STEM curriculum, 
not just an optional elective.
    Regarding improvement of computer science education, I refer to the 
first question and my response. The key is to form teachers with much 
better preparation to help students learn about computing and to 
encourage participation in extra-curricular activities, such as the 
Maker Movement and robotics contests. (A good example is FIRST, For 
Inspiration and Recognition of Science and Technology, founded by 
inventor Dean Kamen and accessible at www.usfirst.org,). Bringing 
working scientists into the classroom or making them available online 
can also help. I find TED talks enormously stimulating--some of them 
make me want to go back to school!
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                            to Dr. Neal Lane
    Question. Peer review directs our research dollars to the projects 
that experts in the field think have the most potential. It promotes 
competition and protects the scientific process from political 
pressures. Can you explain why it is so important to give our expert 
science agencies like DARPA, NSF, and NIST the ability to fund research 
based on the merits of the research, and not on a political agenda?
    Answer. Peer review, as it is used here, refers to the process 
whereby the scientific and technical merit of a grant application is 
evaluated. This task is carried out by scientific ``peers''-scientists 
who have expertise in a relevant discipline and specific area of 
research. Scientific expertise is crucial for understanding both the 
principals of the research proposal and its potential to advance a 
scientific field, wherein lies the true value of basic research. 
Breakthrough achievements in basic research have led to some of the 
greatest technological advancements, and were often pursued with no 
clear application in mind.
    For example, the genomics revolution and the Human Genome Project 
were unleashed by the study of a thermophilic (heat tolerant) bacterium 
from Yellowstone national park. An important treatment for diabetes, 
the drug exenatide, grew out of early investigations into Gila Monster 
venom. Neither of these important applications could have been 
predicted. To address the high demand for kidneys and the challenge of 
finding a donor, economists developed algorithms to match biologically 
compatible donors to patients. And let us not forget the laser, which 
would not exist today without fundamental experiments aimed at 
generating a controlled, extended stream of microwaves through contact 
with a molecule in an excited state, a project that might have been 
considered frivolous at the time.
    Each of these projects in basic research was funded by the Federal 
Government through the process of expert peer review. Were basic 
research proposals to be judged based on a political agenda, or even 
the expectation that an application would result, the American system 
that fuels the best research in the world would be put at risk.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                             Dr. Neal Lane
    Question 1. Investment in computer science education is essential 
if we want to maintain and grow the STEM workforce in the United 
States. That's why I introduced the Innovate America Act with Senator 
Hoeven, which would expand STEM education opportunities to kids across 
the country by increasing the number of STEM secondary schools in the 
United States and boosting computer science investments. Do you believe 
that increasing the number of STEM schools would increase the retention 
of students pursuing a college degree in the STEM fields?
    Answer. While this question falls outside of my area of expertise, 
it would seem reasonable to expect the number of students pursuing a 
postsecondary degree in a STEM field to increase with the number of 
STEM schools, assuming that these schools are accessible, have 
effective teachers and up-to-date curricula, and are able to retain a 
high percentage of students from enrollment through degree attainment. 
STEM education, including computer skills, is critically important for 
developing the competitive workforce that this Nation needs--not only 
careers in science and engineering but many other occupations as well, 
including medicine, law, and business.

    Question 2. Do you believe we have a sufficient amount of computer 
science education in our elementary and high schools? What can be done 
to improve computer science education?
    Answer. This, too, falls outside of my area of expertise. But 
computer science is clearly an important part of primary and secondary 
education, and a valuable skill in today's job market. Employment in 
the computer sciences and math is expected to grow by 18 percent by 
2022, and average annual wages (currently at $76,270) are expected to 
exceed $100,000.\1\ However, according to a study by the National 
Center for Education Statistics, computer science is the only STEM 
field that has seen a decrease in student participation over the last 
20 years, from 25 percent of high school students to only 19 percent in 
2009.\2\ The source of the problem may range from outdated and 
unexciting course curricula to limited availability of advanced 
classes.\3\ Only 9 percent of schools offered AP computer science last 
year, and only 31,117 students took the AP computer science exam, 
compared with 282,814 students who took the AP calculus exam and 
169,508 students who took the AP statistics exam.\4\ The path to 
improving computer science education may begin with addressing these 
two shortcomings.
---------------------------------------------------------------------------
    \1\ Emily Richards and David Terkanian, ``Occupational employment 
projections to 2022,'' Monthly Labor Review, December 2013.
    \2\ National Center for Education Statistics, America's High School 
Graduates: Results from the 2009 NAEP High School Transcript Study, 
2011.
    \3\ Keith Wagstaff, ``Can we Fix Computer Science Education in 
America?'', TIME, July 16, 2012, available at http://techland.time.com/
2012/07/16/can-we-fix-computer-science-education-in-america/.
    \4\ College Board, ``AP Program Participation and Performance Data 
2013,'' 2014, available at http://research.collegeboard.org/programs/
ap/data/participation/2013.
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                             Dr. Neal Lane
    Question 1. Dr. Lane, in your testimony you emphasize the need for 
proactive polices that will maximize the benefit of the Federal R&D 
investment to the American people. One area you highlight is the need 
for a greater government-university-industry partnership. Your 
testimony alludes to the U.S. falling behind in this area. Can you 
expand on that and give us examples of what other countries are doing 
that we could learn from?
    Answer. Today, most innovative and successful companies do not 
think of innovation as a linear, step-by-step process, moving from 
research to invention, then prototype, then product design, then 
marketing. Rather, ideas and data flow back and forth between the 
different groups involved in turning research into products and 
services--industry, universities, and government. In such an innovation 
ecosystem, there is an ongoing iterative dialogue between researchers, 
developers, and marketing teams. Innovation occurs in a web in which 
ideas, data, and people move freely, improving both the quality and 
speed of work.
    Other nations have launched initiatives that encourage the transfer 
of people and ideas across sectors, including Germany (Fraunhofer 
Institutes), Taiwan (ITRI; Industrial Technology Research Institute) 
and Singapore (A*STAR; Agency for Science, Technology and Research). 
The nation that fosters partnerships and cooperation across government, 
industry and academia, as well as a balanced portfolio of basic and 
applied research will lead the globe in scientific and technological 
progress.

    Question 2. Dr. Lane, why is it important for NSF and other 
agencies to support informal science education (ISE) programs? Can you 
provide us with examples of successful ISE programs and recommend ways 
Congress can strengthen these efforts supported by government science 
agencies?
    Answer. Several Federal agencies invest in support of informal 
science, technology, engineering and mathematics education (ISE), 
including the Smithsonian Institution and NASA. The National Science 
Foundation (NSF) invests in a number of informal science education 
(ISE) or out-of-the-classroom activities. The primary NSF ISE program, 
Advancing Informal STEM Learning (AISL), seeks to advance new 
approaches to and evidence-based understanding of the design and 
development of STEM learning in informal environments. This program 
supports work in a variety of informal settings and resources such as 
broadcast media and film; science centers and museums; zoos and 
aquaria; botanical gardens and nature centers; libraries; digital media 
and gaming; youth, community, maker, and after-school programs; science 
communications; citizen science; and education research and evaluation. 
The AISL projects help broaden access to STEM learning experiences and 
give participants new opportunities to understand the world around 
them. In addition to AISL, NSF funding supports a number of other 
programs with ISE components such as Cyberlearning and Future Learning 
Technologies; Discovery Research K-12 (DRK-12); and Innovative 
Technology Experiences for Students and Teachers (I-TEST).
    NSF is committed to supporting the research and development of ISE 
programs in order to identify and understand the mechanisms that drive 
effective outcomes. ISE has the potential to kindle an interest in STEM 
and to spark the creativity that leads to both discovery and 
innovation. These activities also contribute to a science-literate 
citizenry that fosters the basic research critical to building a STEM-
driven economy.
    Congress can strengthen ISE by continuing to encourage efforts to 
build the body of knowledge around what works, for whom, and under what 
conditions for learning in informal settings, and in how such 
experiences motivate and engage youth and the public. Increased support 
would allow more research and evaluation in order to identify 
innovative practices and learning experiences that advance engagement 
with and understanding of STEM subjects. Collaborations across agencies 
that enable the assets of the science mission agencies, through 
partnership with NSF, the Smithsonian, and the U.S. Department of 
Education, to be deployed at large scale to reach and inspire many 
youth across the Nation should be encouraged. Harnessing the lessons 
learned from leading practices creates the potential to expand the 
impact of successful programs through the dissemination of key findings 
and the scaling of evidence-based models.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Stephen Fienberg
    Question. Peer review directs our research dollars to the projects 
that experts in the field think have the most potential. It promotes 
competition and protects the scientific process from political 
pressures. Can you explain why it is so important to give our expert 
science agencies like DARPA, NSF, and NIST the ability to fund research 
based on the merits of the research, and not on a political agenda?
    Answer. Policies established through our political process are 
important to decide how much Federal funds will be invested in research 
and the relative importance of national goals for research investments, 
such as health, the economy, the environment, and energy. But those 
decisions are very different from identifying quality science and the 
scientists where we are most likely to achieve transformative results. 
Only peer review by scientists can assess the latter.
    Picking specific research projects or even scientific disciplines 
to be funded through a political process and favoring them at the 
expense of others is a mistake: it could lead to unintended 
consequences that actually impede research and stunt innovation. 
Scientific discoveries that eventually lead to truly transformative 
innovations often depend on high quality research in variety of fields 
that could not be predicted in advance.
    As we noted in our report, Furthering America's Research 
Enterprise, increased benefits of the Federal investment in research 
are far more likely to flow by promoting the conditions for the 
research enterprise to thrive. The three most impor-
tant conditions are what we call the crucial pillars of the research 
enterprise. These are:

  (1)  a talented and interconnected workforce,

  (2)  adequate and dependable resources, and

  (3)  world-class basic research in all major areas of science.

    We cannot assure the stock of knowledge from research of world-
class quality through a political process. The best way we have is 
through the quality control system of peer-review.
    So, for example, the political process may determine the relative 
importance of research on developing better batteries. But the real 
breakthroughs may come from basic research in chemistry and materials 
science, and the statistical design of new experiments for testing, as 
well as social science research on the adaptation of new technologies.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Dr. Stephen Fienberg
    Question. Investment in computer science education is essential if 
we want to maintain and grow the STEM workforce in the United States. 
That's why I introduced the Innovate America Act with Senator Hoeven, 
which would expand STEM education opportunities to kids across the 
country by increasing the number of STEM secondary schools in the 
United States and boosting computer science investments. Do you believe 
that increasing the number of STEM schools would increase the retention 
of students pursuing a college degree in the STEM fields? Do you 
believe we have a sufficient amount of computer science education in 
our elementary and high schools? What can be done to improve computer 
science education?
    Answer. As important as these questions are, we lack data and 
research to provide clear answers. One issue, for example, is how to 
disentangle the effects of STEM schools from the students who attend 
these schools. Nevertheless, many observers view STEM schools as the 
best route to achieve desired STEM outcomes. And we do have knowledge 
from research that speaks, albeit indirectly, to the question you raise 
about increasing the number of STEM schools. This research is described 
in another National Research Council report, Successful K-12 STEM 
Education: Identifying Effective Approaches in Science, Technology, 
Engineering, and Mathematics. Thus to address aspects of your question 
I have relied on input from colleagues at the National Research 
Council.
    Preliminary research results indicate that the experiences of 
students who graduate from selective schools appear to be associated 
with their choice to pursue and complete a STEM major. ``Yet,'' as the 
report notes, ``there are no systematic data that show whether the 
highly capable students who attend those schools would have been just 
as likely to pursue a STEM major or related career or make significant 
contributions to technology or science if they had attended another 
type of school. Furthermore, specialized models of STEM schooling are 
difficult to replicate on a larger scale because the context in which a 
school is located may facilitate or constrain its success. Specialized 
STEM schools often benefit from a high level of resources, a highly 
motivated student body, and freedom from state testing requirements. 
These conditions would be difficult, if not impossible, to implement 
more widely.'' (NRC, 2011, p. 8)
    Nevertheless, the report notes from preliminary research that 
``students who had research experiences in high school, who undertook 
an apprenticed mentorship or internship, and whose teachers connected 
the content across different STEM courses were more likely to complete 
a STEM major than their peers who did not report these experiences.'' 
(NRC, 2011, p. 9)
    Whether the amount of computer science education in our elementary 
and high schools is sufficient is another question for which we need 
research. A critical element of such research is the clear definition 
of outcomes.
    Thus, to truly answer both questions, what we need are data that 
track the educational choices and progress of students over time, 
including post-secondary outcomes.
Reference
    National Research Council (2011). Successful K-12 STEM Education: 
Identifying Effective Approaches in Science, Technology, Engineering, 
and Mathematics. Committee on Highly Successful Science Programs for K-
12 Science Education. Board on Science Education and Board on Testing 
and Assessment, Division of Behavioral and Social Sciences and 
Education. Washington, D.C.: The National Academies Press.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
